<html>
<title> - WHAT SHOULD AMERICA DO ABOUT GUN VIOLENCE?</title>
<body><pre>[Senate Hearing 113-825]
[From the U.S. Government Publishing Office]










                                                        S. Hrg. 113-825

                         WHAT SHOULD AMERICA DO
                          ABOUT GUN VIOLENCE?

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 30, 2013

                               __________

                           Serial No. J-113-2

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         
         
         
         
         

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-436

PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                      JANUARY 30, 2013, 10:12 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cruz, Hon. Ted, a U.S. Senator from the State of Texas,
    prepared statement...........................................   128
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     3
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah,
    prepared statement...........................................   130
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     2
    prepared statement...........................................   126

                               WITNESSES

Witness List.....................................................    67
Giffords, Hon. Gabrielle, a Former Representative in Congress 
  from the State of Arizona......................................     1
Johnson, James, Chief of Police, Baltimore County Police 
  Department, and Chair, National Law Enforcement Partnership to 
  Prevent Gun Violence, Towson, Maryland.........................    11
    prepared statement...........................................   108
Kelly, Captain Mark E., United States Navy, Retired, Americans 
  for Responsible Solutions, Tucson, Arizona.....................     6
    prepared statement...........................................    68
Kopel, David B., Adjunct Professor, Advanced Constitutional Law, 
  Denver University, Strum College of Law, Denver, Colorado......     9
    prepared statement...........................................    72
LaPierre, Wayne, Executive Vice President and Chief Executive 
  Officer, National Rifle Association, Fairfax, Virginia.........    14
    prepared statement...........................................   122
Trotter, Gayle S., Attorney, and Senior Fellow, Independent 
  Women's Forum, Washington, DC..................................    13
    prepared statement...........................................   111

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Ackerman, Bruce, et al., ``Statement of Professors of 
  Constitutional Law: The Second Amendment and the 
  Constitutionality of the Proposed Gun Violence Prevention 
  Legislation,'' statement.......................................   183
American Federation of Teachers (AFT), Washington, DC, statement.   131
Barden, Mark, and Jackie Barden, ``Make the debate over guns 
  worthy of our son,'' The Washington Post, January 29, 2013, 
  article........................................................   176
Bueermann, Jim, President, Police Foundation, Washington, DC, and 
  former Chief of Police, Redlands, California, statement........   142
Greenberg, Sheldon, Ph.D., Associate Dean, Johns Hopkins 
  University, School of Education, Division of Public Safety 
  Leadership; Former Associate Director, Police Executive 
  Research Forum; Former Officer, Supervisor, and Bureau 
  Commander, Howard County, Maryland, Police Department; Past 
  President, Maryland Crime Prevention Association; statement....   178
Horwitz, Joshua, Executive Director, Coalition to Stop Gun 
  Violence, statement............................................   152
Kopel, David, ``Guns, Mental Illness and Newtown,'' December 17, 
  2012, article..................................................   138
Law Center to Prevent Gun Violence, Juliet A. Leftwich, Legal 
  Director, letter to Hon. Dick Durbin, a U.S. Senator from the 
  State of Illinois, January 28, 2013............................   157
Mayors Against Illegal Guns, Hon. Thomas M. Menino, Mayor of 
  Boston, Massachusetts, Coalition Co-Chair, and Hon. Michael R. 
  Bloomberg, Mayor of New York, New York, Coalition Co-Chair, 
  January 30, 2013, letter.......................................   160
Legal Defense and Educational Fund, Inc. (LDF), National 
  Association for the Advancement of Colored People (NAACP), New 
  York, New York, statement......................................   167
National Education Association (NEA), Mary Kusler, Director, 
  Government Relations, January 29, 2013, letter.................   173
Nelson, Eliot W., M.D., Professor of Pediatrics, University of 
  Vermont College of Medicine, statement.........................   147
radioiowa.com, ``Law officers tell Congressman mental health 
  issues more important than gun ban,'' article..................   136
Rahamim, Miya, Minneapolis, Minnesota, statement.................   164
Rodgers, Hon. John, Vermont State Senate, statement..............   192
United States Department of Justice, Report to the National 
  Institute of Justice, June 2004, excerpt.......................   145
Vermont Federation of Sportsmen's Clubs, Clint Gray, President, 
  January 29, 2013, letter.......................................   191
Watts, Shannon, Founder, One Million Moms for Gun Control, 
  statement......................................................   189
Webster, Daniel W., Sc.D., M.P.H., Professor and Director, Johns 
  Hopkins Center for Gun Policy and Research, statement..........   180
Zeoli, April M., Assistant Professor, School of Criminal Justice, 
  Michigan State University, January 28, 2013, letter............   134
 
                         WHAT SHOULD AMERICA DO
                          ABOUT GUN VIOLENCE?

                              ----------                              


                      WEDNESDAY, JANUARY 30, 2013

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:12 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Feinstein, Schumer, Durbin, 
Whitehouse, Klobuchar, Franken, Coons, Blumenthal, Hirono, 
Grassley, Hatch, Sessions, Graham, Cornyn, Lee, Cruz, and 
Flake.
    Chairman Leahy. We have more than 200 people here today. 
Hundreds more are watching on our Committee Webcast. I expect 
everybody in this room to be respectful of the Senators and the 
witnesses speaking about this very serious subject. That means 
I do not want applause for or against any position I might take 
or anybody else takes. The Capitol Police have been notified to 
remove any audience member who interferes with the orderly 
conduct of this important hearing.
    This, incidentally, is a warning I give at many hearings. 
We are going to hear a lot of different perspectives on gun 
violence, and both Senator Grassley and I will give opening 
statements. But we have a former Member of Congress here, Gabby 
Giffords, who is going to give a brief message, then leave. 
And, Captain Kelly, thank you for your help in bringing your 
wife here.
    Ms. Giffords.

         STATEMENT OF HON. GABRIELLE GIFFORDS, A FORMER
          REPRESENTATIVE IN CONGRESS FROM THE STATE OF
                            ARIZONA

    Ms. Giffords. Thank you for inviting me here today. This is 
an important conversation for our children, for our 
communities, for Democrats and Republicans.
    Speaking is difficult but I need to say something 
important. Violence is a big problem. Too many children are 
dying. Too many children. We must do something. It will be 
hard, but the time is now. You must act. Be bold, be 
courageous. Americans are counting on you.
    Thank you.
    Chairman Leahy. Captain Kelly, do you want to help Ms. 
Giffords out? I will give you a few moments.
    [Pause.]

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. We will return to the hearing, and I thank 
former Congresswoman Giffords and her husband. We will be 
calling up the witnesses shortly, and Senator Grassley and I 
will give our opening statements.
    On December 14, America's heart was broken when 20 young 
children and 6 dedicated educators were murdered. This is the 
first Judiciary Committee hearing of the 113th Congress, and I 
want everybody here to join in the discussion as part of a 
collective effort to find solutions to help ensure that no 
family, no school, and no community ever has to endure such a 
grievous tragedy again.
    We have to come together today as Americans seeking a 
common cause. I hope we can forgo sloganeering, demagoguery, 
and partisan recriminations. This is too important for that. 
Every American abhors the recent tragedies: in just the last 2 
years, in an elementary school in Connecticut, in a movie 
theater in Colorado, in a sacred place of worship in Wisconsin, 
and in front of a shopping mall in Arizona.
    Americans are looking to us for solutions and for action. 
This Committee is a focal point for that process. I have 
introduced a measure to provide law enforcement agencies with 
stronger tools against illegal gun trafficking. Others have 
proposed restrictions on military-style weapons and the size of 
ammunition clips. Others have proposed modifications to the 
background check systems to keep guns out of the wrong hands 
while not unnecessarily burdening law-abiding citizens.
    I am a lifelong Vermonter. I know gun store owners in 
Vermont. They follow the law. They conduct background checks to 
block the conveyance of guns to those who should not have them. 
And they wonder why others who sell guns do not have to follow 
these same protective rules. And I agree with these responsible 
business owners. If we can all agree that criminals and those 
adjudicated as mentally ill should not buy firearms, why should 
we not try to plug the loopholes in the law that allow them to 
buy guns without background checks? It is a simple matter of 
common sense. And if we agree that the background check system 
is worthwhile, should we not try to improve its content and use 
it so it can be more effective? What responsible gun owner 
objects to improving the background check system?
    When I buy firearms in Vermont, I go through a background 
check. I would expect everybody else to.
    Now, at the outset of this hearing, I note that the Second 
Amendment is secure and will remain secure and protected. In 
two recent cases, the Supreme Court has confirmed that the 
Second Amendment, like other aspects of our Bill of Rights, 
secures a fundamental individual right. Americans have the 
right to self-defense and, as the Court has said, to have guns 
in their homes to protect their families. No one can take away 
those rights or their guns. Second Amendment rights are the 
foundation on which our discussion rests. They are not at risk. 
But what is at risk are lives. Lives are at risk when 
responsible people fail to stand up for laws that will keep 
guns out of the hands of those who will use them to commit 
murder, especially mass murder. I ask that we focus our 
discussion on additional statutory measures to better protect 
our children and all Americans. I say this as a parent and as a 
grandparent. Ours is a free society, an open society. We come 
together today to consider how to become a safer and more 
secure society.
    No one begrudges the Government assistance provided to 
victims of mass tragedies made possible by the law we passed 
after the bombing at Oklahoma City. The bill I introduced last 
week against gun trafficking will similarly prove helpful and I 
believe will become an accepted part of our crime control 
framework. It, too, is a common-sense reform. It fills a hole 
in our law enforcement arsenal so that straw purchasers who 
acquire weapons for criminals can be prosecuted more 
effectively.
    Last Thursday, the President nominated the U.S. Attorney 
from Minnesota--and we have two Senators from that State here 
on this Committee--to direct the Federal Bureau of Alcohol, 
Tobacco, Firearms, and Explosives. And I trust that all 
Senators will cooperate in a prompt hearing and action on that 
nomination and will join in good faith to strengthen our law 
enforcement efforts against gun violence and to protect public 
safety.
    As a responsible gun owner and someone who cherishes all of 
our constitutional rights, as a Senator who has sworn an oath 
to uphold those rights, as a father and grandfather, and as a 
former prosecutor who has seen the results of gun violence 
firsthand in graphic detail, I undertake these efforts with the 
hope that this hearing can build consensus around common-sense 
solutions. Previous measures to close the gun show loophole or 
to improve the background check system have been bipartisan. 
And I hope in this new Congress further improvements will also 
become bipartisan and we can act together as Americans.
    Now, I have said what kinds of measures I can support. I 
will ask other Senators to come forward and do so as well. I 
will ask our witnesses what legislative proposals they support 
to make America safer, and I thank everybody here for joining 
in today's discussion.
    Senator Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Mr. Chairman, I thank you as well for 
this hearing, and thanks to everybody who is here, and 
particularly our witnesses.
    What happened at Newtown shocks our Nation. We will never 
forget where we were or how we reacted when we learned that 20 
very young children and 6 adults were killed that day; or if we 
forgot about that specific instance, you do not forget about 
all the tragedies that have happened recently.
    As a grandfather and great-grandfather, I cannot imagine 
how anyone would commit an evil act like that, and I cannot 
ever begin to know what it would be like to be a relative of 
one of those slain children. We pray for the families who 
continue to mourn the loss of loved ones. We pray for all 
victims of violence, by guns and otherwise.
    Clearly, violent crimes and those who commit them are a 
plague on our society, one that has been with us for far too 
long. We have looked at these issues before, but I welcome this 
renewed discussion.
    I think the need for the Judiciary Committee to hold 
hearings after Newtown is very clear. All over America, people 
were appalled by what happened to those vulnerable and precious 
victims, and we all want to examine sensible actions that could 
reduce the likelihood of future crimes.
    And we have extended a special welcome to former 
Congresswoman Giffords. She was doing what a conscientious 
Representative should do, what I hope all of us do: taking the 
pulse of constituents to represent them in Congress. She was 
representing the people of her congressional district when a 
gunman opened fire. The shooting was a horrible tragedy. But 
her determination to overcome her injuries, progress through 
rehabilitation, and continued contribution to society are an 
inspiration or at least should be an inspiration to all of us. 
I thank her for being here today, and with her husband, Captain 
Kelly.
    Although Newtown and Tucson are terrible tragedies, the 
deaths in Newtown should not be used to put forward every gun 
control measure that has been floating around for years because 
the problem is greater than just guns alone, and I think the 
Chairman's speech indicates that as well. Any serious 
discussion of the causes of gun violence must include a complex 
re-examination of mental health as it relates to mass 
shootings. Society as a whole has changed as well, and that 
statement is made. It is difficult for anyone to measure it, 
but I think you see a lack of civility in American society has 
grown considerably in the last couple decades. You see it here 
in the Congress as well when we are partisan and do not treat 
each other with the respect that we ought to.
    There are too many video games that celebrate the mass 
killing of innocent people, games that, despite attempts at 
industry self-regulation, find their way into the hands of 
children. An example: One video game released November 2009, 
which has sold over 22 million copies in the U.S. and U.K., was 
for foreign distribution because the opening level depicted 
shooting innocent civilians in an airport security line. This 
game was specifically cited in the manifesto of the Norway mass 
shooter as ``part of my training simulation'' for carrying out 
his attacks.
    Where is the artistic value of shooting innocent victims? I 
share Vice President Biden's disbelief of manufacturer denial 
that these games have no effect on real-world violence.
    Above all, we should not rush to pass legislation that will 
not reduce mass killings. Banning guns based on their 
appearance does not make sense. The 1994 assault weapon ban did 
not stop Columbine. The Justice Department found the ban 
ineffective. Scholars have indicated that refining or expanding 
such legislation will not cut gun violence.
    I also question the limitation on magazine capacities. 
Those can be circumvented by carrying multiple guns, as many 
killers have done. We hear that no one needs to carry larger 
magazines than those that hunters use to shoot deer. But an 
attacking criminal, unlike a deer, shoots back. I do not think 
that we may--I do think that we may be able to work together to 
prevent straw purchasers from trafficking in guns.
    The oversight work that I conducted on the illegal 
Operation Fast and Furious shows that there are some gaps in 
this area of law that should be closed. Besides legislative 
proposals, the President recently took 23 Executive actions on 
guns, and without knowing exactly how they are worded, we 
cannot find fault with them, and probably should not find fault 
with a lot of his actions. Despite this administration's claim 
to be the most transparent in history, the text of these 
actions is still not posted on the White House website, only 
very brief statements about what they do. But all of those 
Executive actions could have been issued 4 years ago or after 
the Tucson shooting or after Aurora. Why only now?
    One order directs the Centers for Disease Control to 
research causes of gun violence. Contrary to what you may have 
heard, Congress has never prohibited CDC from researching gun 
violence; rather, Congress prohibited Federal research to 
``advocate or promote gun control,'' which some Government 
researchers have been doing under the guise of taxpayer-
supported science. Had Congress actually prohibited gun 
violence research, the President could not legally have 
directed CDC to conduct that research.
    I was taken aback when the President cited the Declaration 
of Independence and the Constitution as sources of Government 
power to restrict gun ownership rights. The Constitution, in 
fact, creates a limited Federal Government. It separates powers 
among branches of the Federal Government, and it preserves 
State power against Federal power. The Framers believed that 
these structures would adequately control the Government so as 
to protect individual liberty.
    But the American people disagreed. They feared that the 
Constitution gave the Federal Government so much power that it 
could be tyrannical and violate individual rights. So the Bill 
of Rights was added. Each of those rights, including the Second 
Amendment, was adopted to further limit Government power and 
protect individual rights. President Obama's remarks turned the 
Constitution on its head. He said, ``The right to worship 
freely and safely, that right was denied to Sikhs in Oak Creek, 
Wisconsin. The right to assemble peaceably, that right was 
denied shoppers in Clackamas, Oregon, and moviegoers in Aurora, 
Colorado. That most fundamental set of rights to life, liberty, 
and the pursuit of happiness are fundamental rights that were 
denied to college students at Virginia Tech and high school 
students at Columbine and elementary school students in 
Newtown.''
    But this is not so. Except for its prohibition on slavery, 
the Constitution limits only actions of Government, not 
individuals. So, for instance, the right to peaceably assemble 
protects individual rights to organize, to protest, and seek to 
change Government action. That right is trivialized and 
mischaracterized as protecting shopping and watching movies, 
and those constitutional rights are not the source of 
governmental power to enact legislation as the President 
suggested. In fact, just the opposite. They were included in 
the Bill of Rights because throughout history governments have 
wanted to shut up those who would criticize government to 
suppress unpopular religions or to disarm people. The President 
cited constitutional protections of individual rights as the 
basis for expanding Federal power over the lives of private 
individuals. This is the same President who exceeded his power 
under the Constitution to appoint recess appointments. So no 
wonder millions of Americans fear that the President might take 
Executive action and Congress may enact legislation that could 
lead to a tyrannical Federal Government.
    So I cannot accept the President's claim that ``there will 
be politicians and special interest lobbyists publicly warning 
of a tyrannical all out assault on liberty, not because that is 
true but because they want to gin up fear.'' This necessarily 
and understandably leads many citizens to fear that their 
individual rights will be violated, and that extends well 
beyond the Second Amendment. It should be a matter of deep 
concern to all of us. The Constitution for 225 years has 
established a Government that is a servant of the people, not 
the master.
    So, Mr. Chairman, as we consider and debate legislation 
arising from these tragedies, I hope that we will proceed with 
proper understanding of the relationship that the Constitution 
establishes between Government power and individual liberty, 
and I hope we will pass those bills that would actually be 
effective in reducing gun violence.
    I welcome the witnesses and look forward to this hearing. 
Thank you very much.
    Chairman Leahy. Well, thank you.
    I would ask that Captain Mark Kelly, Professor David Kopel, 
Chief James Johnson, Ms. Gayle Trotter, and Mr. Wayne LaPierre 
step forward. Just stand behind your chairs for the moment 
while I swear in the panel all at one time. Please raise your 
right hand. Do you solemnly swear that the testimony you will 
give in this matter will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Captain Kelly. I do.
    Professor Kopel. I do.
    Chief Johnson. I do.
    Ms. Trotter. I do.
    Mr. LaPierre. I do.
    Chairman Leahy. Let the record show that all five witnesses 
have been sworn in. Please take your seats.
    What I am going to suggest we do, I am going to call on 
each witness--we are going to try to keep to fairly strict 
time, and I will call on each one to give their testimony. Then 
we will open it to questions in the usual way, alternating 
between both sides.
    Our first witness is Mark Kelly. He is a retired astronaut 
and U.S. Navy captain. Captain Kelly recently co-founded 
Americans for Responsible Solutions. This is an advocacy group 
that promotes solutions to prevent gun violence and protect 
responsible gun ownership. He did it with his wife, former 
Congresswoman Gabrielle Giffords.
    Captain Kelly, please go ahead, sir.

STATEMENT OF CAPT. MARK E. KELLY, UNITED STATES NAVY, RETIRED, 
              AMERICANS FOR RESPONSIBLE SOLUTIONS,
                        TUCSON, ARIZONA

    Captain Kelly. Thank you, Chairman Leahy and Ranking Member 
Grassley, for inviting me here today. I look forward to a 
constructive dialogue with your Committee. I also want to take 
the opportunity to congratulate Gabby's friend and much 
respected former colleague, Jeff Flake, on his new role as 
Arizona's junior Senator.
    As you know, our family has been immeasurably affected by 
gun violence. Gabby's gift for speech is a distant memory. She 
struggles to walk, and she is partially blind. And a year ago 
she left a job she loved serving the people of Arizona.
    But in the past 2 years, we have watched Gabby's 
determination, spirit, and intellect conquer her disabilities.
    We are not here as victims. We are speaking to you today as 
Americans.
    We are a lot like many of our fellow citizens following 
this debate about gun violence:
    We are moderates. Gabby was a Republican long before she 
was a Democrat.
    We are both gun owners, and we take that right and the 
responsibilities that come with it very seriously.
    And we watch with horror when the news breaks to yet 
another tragic shooting. After 20 kids and 6 of their teachers 
were gunned down in their classrooms at Sandy Hook, Elementary, 
we said this time must be different. Something needs to be 
done.
    We are simply two reasonable Americans who have said, 
``Enough.''
    On January 8, 2011, a young man walked up to Gabby at her 
constituent event in Tucson, leveled his gun, and shot her 
through the head. He then turned down the line and continued 
firing. In 15 seconds, he emptied his magazine. It contained 33 
bullets, and there were 33 wounds.
    As the shooter attempted to reload, he fumbled. A woman 
grabbed the next magazine, and others restrained him.
    Gabby was the first victim. Christina-Taylor Green, 9 years 
old, born on 9/11 of 2001, was shot with the 13th bullet or 
after. And others followed.
    The killer in the Tucson shooting suffered from severe 
mental illness. But even after being deemed unqualified for 
service in the Army and expulsion from Pima Community College, 
he was never reported to mental health authorities.
    On November 30, 2010, he walked into a sporting goods 
store, passed a background check, and walked out with a 
semiautomatic handgun. He had never been legally adjudicated as 
mentally ill, and even if he had, Arizona at the time had over 
121,000 records of disqualifying mental illness that it had not 
submitted into the system.
    Looking back, we cannot say with certainty, ``Only if we 
had done this, this would have never happened.'' There is not 
just one thing that would have prevented the Tucson shooting 
from being written into the history books.
    Gabby is one of roughly 100,000 victims of gun violence in 
America each and every year. Behind every victim lays a matrix 
of failure and inadequacy--in our families, in our communities, 
in our values; in our society's approach to poverty, violence, 
and mental illness; and, yes, also in our politics and in our 
gun laws.
    One of our messages is simple: The breadth and complexity 
of gun violence is great, but it is not an excuse for inaction.
    There is another side to our story.
    Gabby is a gun owner, and I am a gun owner. We have our 
firearms for the same reasons that millions of Americans just 
like us have guns: to defend ourselves, to defend our families, 
for hunting, and for target shooting.
    We believe wholly and completely in the Second Amendment 
and that it confers upon all Americans the right to own a 
firearm for protection, collection, and recreation.
    We take that right very seriously, and we would never, ever 
give it up--just like Gabby would never relinquish her gun, and 
I would never relinquish mine.
    But rights demand responsibility. And this right does not 
extend to terrorists, it does not extend to criminals, and it 
does not extend to the mentally ill.
    When dangerous people get guns, we are all vulnerable--at 
the movies, at church, conducting our everyday business, 
meeting with a Government official; and time after time after 
time, at school, on our campuses, and in our children's 
classrooms.
    When dangerous people get dangerous guns, we are all the 
more vulnerable. Dangerous people with weapons specifically 
designed to inflict maximum lethality upon others have turned 
every single corner of our society into places of carnage and 
gross human loss.
    Our rights are paramount. But our responsibilities are 
serious. And as a Nation, we are not taking responsibility for 
the gun rights that our Founding Founders conferred upon us.
    Now, we have some ideas on how we can take responsibility.
    First, fix gun background checks. The holes in our laws 
make a mockery of the background check system. Congress should 
close the private sales loophole and get dangerous people 
entered into that system.
    Second, remove the limitations on collecting data and 
conducting scientific research on gun violence.
    Enact a tough Federal gun-trafficking statute. This is 
really important.
    And, finally, let us have a careful and civil conversation 
about the lethality of firearms we permit to be legally bought 
and sold in this country.
    Gabby and I are pro-gun ownership. We are also anti-gun 
violence, and we believe that in this debate Congress should 
look not toward special interests and ideology, which push us 
apart, but toward compromise, which brings us together. We 
believe whether you call yourself pro-gun or anti-gun violence, 
or both, that you can work together to pass laws that save 
lives.
    Thank you.
    [The prepared statement of Capt. Mark E. Kelly appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Our next witness, David Kopel, is the research director for 
the Independence Institute as well as an associate policy 
analyst for the Cato Institute and adjunct professor of 
Advanced Constitutional Law at Denver University's Strum 
College of Law.
    Did I get that all correct?
    Professor Kopel. Perfect.
    Chairman Leahy. Thank you. Go ahead, please.

        STATEMENT OF DAVID B. KOPEL, ADJUNCT PROFESSOR,
 ADVANCED CONSTITUTIONAL LAW, DENVER UNIVERSITY, STRUM COLLEGE 
                    OF LAW, DENVER, COLORADO

    Professor Kopel. Thank you, Chairman Leahy and Senator 
Grassley.
    I think to continue the themes that Captain Kelly has so 
eloquently spoken about, gun rights and gun control do not have 
to be culture war enemies. Properly conceived, they can work 
together and reinforce each other. It is important to recognize 
that the Second Amendment is not absolute any more than the 
First Amendment is. It certainly has an absolute core that 
cannot be violated under any circumstances, but that does not 
prohibit all firearms controls.
    Chairman Leahy. Excuse me, and this will not come out of 
your time.
    Professor Kopel. Okay.
    Chairman Leahy. All of the statements will be put in the 
record in full so we can keep close to the time.
    Go ahead.
    Professor Kopel. Thank you. I will keep very close to the 
time.
    And, likewise, gun controls do not violate the Second 
Amendment if they are constructed so they do not violate the 
rights of law-abiding citizens and they actually do something 
constructive, significant, and effective to protect law-abiding 
citizens.
    Captain Kelly talked about the matrix of failure. Twenty 
years ago, I testified before this Committee--some of the 
Senators are still here--about one thing that turned out to be 
part of that matrix of failure, and that was the ban on so-
called assault weapons. I warned during that testimony then 
that it was based not on the function of guns or how fast they 
fired or how powerful they were, but on superficial, cosmetic 
characteristics and accessories.
    As part of the compromise that eventually led to that bill 
being mistakenly passed by Congress, the bill had a 10-year 
sunset in it and a requirement that the Department of Justice 
supervise a study of the effectiveness of that law. That study 
was--the people that carried out that study were chosen by 
Attorney General Reno's Department of Justice. They did several 
interim studies and then a final study, and they concluded that 
the law had done nothing. It had not saved lives; it had not 
reduced the number of bullets that were fired in crimes. It had 
been a failure. It had, to some minor degree, switched the 
types of guns that were used in crimes, so you had a gun with 
one name instead of another name. But it did not reduce crime 
overall. And, indeed, it was a dangerous bill in the sense that 
so much political attention was distracted by the focus on this 
that it took public attention away from debate on measures that 
might have been more constructive and life-saving.
    Today, police and law-abiding citizens choose semiautomatic 
handguns and rifles, such as the AR-15, for the same reason. 
They are often the best choice for the lawful defense of self 
and others. To assert that such firearms and their standard 
capacity factory magazines are only meant for mass murder is 
truly to libel law-abiding citizens and the many law 
enforcement officers who choose these guns not for hunting, not 
for collecting, but for the purpose for which police officers 
always carry firearms: for the lawful defense of self and 
others.
    Great Britain shows the perils of mass gun confiscation 
that some people have proposed. It has a higher violent crime 
rate than the United States and an especially high rate of home 
invasion burglaries.
    Congress has repeatedly outlawed gun registration because 
of the accurate recognition that in other countries, and in the 
United States, in New York City, gun registration has been used 
as a tool for confiscation. These 1941, 1986, and 1993 
congressional statutes are one way that gun rights can be 
protected against future abuses.
    Unfortunately, the bills about universal background checks 
that have been proposed in recent Congresses with the support 
of New York City Mayor Michael Bloomberg have often had 
provisions in them for gun registration and for many other 
violations of the civil liberties of law-abiding persons, such 
as allowing gun bans for people who are accused, but acquitted, 
of drug crimes.
    Universal background checks should be available. It was a 
wise move by President Obama in his January 16th press 
conference to begin changes in Federal regulations and their 
interpretation to allow private sellers to access the 
background check system via a federally licensed firearms 
dealer. Many people will choose to take advantage of that, and 
I commend them. But mandating universal checks can only be 
enforceable if there is universal gun registration, and we know 
that universal gun registration in every country in the world 
where it has existed has been a serious peril to gun ownership. 
Universal gun registration was imposed by Canada in 1995 and 
was later repealed in 2012 by the Canadian parliament because 
it was such a fiasco.
    If we want to save lives right now, not with constructive 
reforms that might do some good in the future, there is only 
one thing that will stop the next copycat killer, and that is, 
lawful armed self-defense in the schools not only by armed 
guards but also by teachers. Utah provides the successful 
model. There, a teacher who has a permit to carry after a 
background check and a safety training class everywhere else in 
the State is not prohibited from carrying at the schools. Gun 
prohibition lobbies come up with all kinds of fantastic 
scenarios about the harms that these would cause: teachers will 
shoot each other or threaten students or the students will 
steal the guns. But we have had this policy and practice in 
Utah for many years, and we have never had a single problem. 
And, quite notably, we have never had an attack on a Utah 
school. If we want to save lives, armed defense in the schools 
is the immediate and best choice while other constructive 
solutions make take longer to have an effect.
    Thank you.
    [The prepared statement of Prof. David B. Kopel appears as 
a submission for the record.]
    Chairman Leahy. Thank you very much. As I said, your full 
statement will be placed in the record.
    Chief James Johnson is the police chief for the Baltimore 
County Police Department. He started his career as a police 
cadet at the age of 18. He has more than 30 years of experience 
with the department. He is also the Chair of the National Law 
Enforcement Partnership to Prevent Gun Violence that represents 
nine national law enforcement organizations.
    Chief, thank you for taking the time to be here. Please go 
ahead, sir.

          STATEMENT OF JAMES JOHNSON, CHIEF OF POLICE,
         BALTIMORE COUNTY POLICE DEPARTMENT, AND CHAIR,
 NATIONAL LAW ENFORCEMENT PARTNERSHIP TO PREVENT GUN VIOLENCE, 
                        TOWSON, MARYLAND

    Chief Johnson. Thank you. Mr. Chairman, Ranking Member, and 
Members of the Committee, thank you for the opportunity to 
testify. I am here on behalf of the National Law Enforcement 
Partnership to Prevent Gun Violence----
    Chairman Leahy. Is your microphone on?
    Chief Johnson. Yes, sir, it is.
    I am here on behalf of the National Law Enforcement 
Partnership to Prevent Gun Violence, an alliance of the 
Nation's law enforcement leadership organizations concerned 
about the unacceptable level of gun violence in the United 
States.
    We mourn the loss of gun violence victims, including the 20 
children and 6 adults in Newtown whose lives were cut short by 
an individual armed with firepower originally designed for 
combat.
    More than 30 homicides occur in America each day. Two 
thousand children--and 6 adults certainly in Newtown, are 
amongst those individuals--ages 18 and under die of firearm-
related violence and deaths every year. In 2011, for the first 
time in 14 years, firearms were the leading cause of death for 
police officers killed in the line of duty.
    In a 1-week period in 2011, the Police Executive Research 
Forum found that gun crime in six cities cost more than $38 
million, and in the year 2010 the cost to the entire country 
more than $57 billion.
    We urgently need Congress to address the rising epidemic of 
gun violence in this Nation. Law enforcement leaders support 
the President's comprehensive approach, which includes 
enhancing safety at educational institutions and addressing 
mental health issues. But on behalf of my colleagues across the 
Nation, I am here today to tell you that we are long overdue in 
strengthening our Nation's gun laws. Doing so must be a 
priority for Congress.
    The organizations in the National Law Enforcement 
Partnership to Prevent Gun Violence urgently call on you to:
    Require background checks for all firearm purchasers;
    Ensure that prohibited purchaser records in the National 
Instant Criminal Background Check System (NICS) are complete;
    And limit high-capacity ammunition feeding devices to ten 
rounds.
    Seven of our nine groups, including the largest among us, 
also support Senator Feinstein's assault weapons ban 
legislation.
    Federal law prohibits dangerous individuals, such as 
convicted felons and those with mental health disqualifiers, 
from possessing firearms. While background checks are required 
for purchases through licensed gun dealers, no check is 
required for private sales, such as those through online or 
print ads or gun shows. It is a major problem.
    From November 2011 to November 2012, an estimated 6.6 
million gun transactions occurred without a background check. 
Up to 40 percent of firearm transactions occur through private 
individuals rather than licensed gun dealers. Allowing 40 
percent of those acquiring guns to bypass checks is like 
allowing 40 percent of passengers to board a plane without 
going through security. Would we do this?
    Last October, in Brookfield, Wisconsin, seven women were 
shot by a prohibited purchaser who was under a domestic 
violence restraining order. The shooter answered an online ad 
and was able to buy a gun without a check very quickly. Had the 
sale been required to have a check, this tragedy could have 
been prevented.
    Background checks work. They stopped nearly 2 million 
prohibited purchases between 1994 and 2009. We already have a 
national background check system in place. Therefore, extending 
background checks to all firearm purchasers can easily be 
implemented--and it should be--without delay.
    States cannot do it alone. Interstate firearms trafficking 
is a rampant problem, and it must be addressed federally. 
According to ATF, in 2009, 30 percent of guns recovered at 
crime scenes crossed State lines. Maryland recovered nearly 
2,000 last year from outside the State.
    Submissions to NICS must be improved, especially mental 
health and drug abuse records. The 2007 massacre at Virginia 
Tech is a great example of a prohibited purchaser slipping 
through the cracks due to an incomplete NICS background check.
    The ban on assault weapons and high-capacity ammunition 
must be reinstated. Like assault weapons, high-capacity 
magazines are not used for hunting. They do not belong in our 
homes, and they wreak havoc in our communities. Banning these 
magazines will limit the number of rounds a shooter can 
discharge before he has to reload. Reloading can provide a 
window to escape, to seek cover or concealment, or attack the 
adversary, to take down the shooter, as we have heard in 
Tucson.
    In 1998, 4 years after the assault weapons and high-
capacity magazine ban was enacted, the percentage of firearms 
with large-capacity magazines recovered by Virginia police 
decreased and continued to drop until it hit a low of 9 percent 
of the weapons recovered in 2004, the year the ban expired. It 
hit a high of 20 percent in 2010.
    I have been in law enforcement for nearly 35 years, and I 
have seen an explosion in firepower since the assault weapons 
ban expired. It is common to find many shell casings at crime 
scenes when you go out and you investigate these days. Victims 
are being riddled with multiple gunshots.
    The common-sense measures we call for will not infringe on 
Second Amendment rights, but will keep guns out of the 
dangerous hands of people who are out there to commit danger in 
our society, and excessive firepower out of our communities.
    Generations of Americans, including our youngest ones, are 
depending on you to ensure they will grow up and fulfill their 
roles in the great human experience. None of us can fail them, 
and I urge you to follow the will of the American public on 
this issue and stand with law enforcement on these common-sense 
public safety measures.
    Thank you.
    [The prepared statement of Chief James Johnson appears as a 
submission for the record.]
    Chairman Leahy. Thank you, Chief.
    Our next witness is Gayle Trotter. She is the co-founder of 
Shafer and Trotter PLC, a law firm here in Washington. She is 
also a senior fellow at the Independent Women's Forum.
    Attorney Trotter, good to have you here. Go ahead, please.

  STATEMENT OF GAYLE S. TROTTER, ATTORNEY, AND SENIOR FELLOW, 
           INDEPENDENT WOMEN'S FORUM, WASHINGTON, DC

    Ms. Trotter. Chairman Leahy, Ranking Member Grassley, and 
Members of this Committee, thank you for inviting me to appear 
before you today.
    We all want a safer society. We differ on how to make our 
society safer, and we differ on whether some proposals will 
actually increase public safety. I urge you to reject any 
actions that will fail to make Americans safer and, in 
particular, harm women the most.
    I would like to begin with the compelling story of Sarah 
McKinley. Home alone with her baby, she called 911 when two 
violent intruders began to break down her front door. These men 
were forcing their way into her home to steal the prescription 
medication of her recently deceased husband. Before police 
could arrive, while Ms. McKinley was still on the phone with 
911, these violent intruders broke down her door. One of the 
men had a foot-long hunting knife. As the intruders forced 
their way into her home, Ms. McKinley fired her weapon, fatally 
wounding one of the violent attackers. The other fled. Later, 
Ms. McKinley explained: ``It was either going to be him or my 
son. And it wasn't going to be my son.''
    Guns make women safer. Over 90 percent of violent crimes 
occur without a firearm, which makes guns the great equalizer 
for women. The vast majority of violent criminals use their 
size and their physical strength to prey on women who are at a 
severe disadvantage.
    In a violent confrontation, guns reverse the balance of 
power. An armed woman does not need superior strength or the 
proximity of a hand-to-hand struggle. Concealed-carry laws 
reverse that balance of power even before a violent 
confrontation occurs. For a would-be criminal, concealed-carry 
laws dramatically increase the risk of committing a crime. This 
indirectly benefits even those who do not carry. Research shows 
that in jurisdictions with concealed-carry laws, women are less 
likely to be raped or murdered than they are in States with 
more restrictions on gun ownership.
    Armed security works. Brave men and women stand guard over 
Capitol Hill, including this building where we are now. Armed 
guards protect high-profile individuals, including prominent 
gun control advocates, some of whom also rely on personal gun 
permits.
    While armed security works, gun bans do not. Anti-gun 
legislation keeps guns away from the sane and the law-abiding, 
but not criminals. No sober-minded person would advocate a gun 
ban instead of armed security to protect banks, airports, or 
government buildings.
    We need sensible enforcement of the laws that are already 
on the books. Currently, we have thousands--thousands--of 
underenforced or selectively enforced gun laws, and we fail to 
prosecute serious gun violations or impose meaningful, 
consistent penalties for violent felonies involving firearms.
    Instead of self-defeating gestures, we should address gun 
violence based on what works. Guns make women safer. The 
Supreme Court has recognized that lawful self-defense is a 
central component of the Second Amendment's guarantee of the 
right to keep and bear arms. For women, the ability to arm 
ourselves for our protection is even more consequential than 
for men because guns are the great equalizer in a violent 
confrontation. As a result, we protect women by safeguarding 
our Second Amendment rights. Every woman deserves a fighting 
chance.
    Thank you.
    [The prepared statement of Gayle S. Trotter appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Ms. Trotter.
    And our last witness--and then we will go to questions--is 
Wayne LaPierre, the executive vice president and CEO of the 
National Rifle Association.
    I believe, Mr. LaPierre, you have been there since 1978. Is 
that correct?
    Mr. LaPierre. That is correct, Senator.
    Chairman Leahy. Please go ahead.

          STATEMENT OF WAYNE LAPIERRE, EXECUTIVE VICE
     PRESIDENT AND CHIEF EXECUTIVE OFFICER, NATIONAL RIFLE 
                 ASSOCIATION, FAIRFAX, VIRGINIA

    Mr. LaPierre. Thank you, Mr. Chairman and Members of the 
Committee. It is an honor to be here today on behalf of more 
than 4.5 million moms and dads, sons and daughters----
    Chairman Leahy. Is your microphone on?
    Mr. LaPierre. Thank you, Mr. Chairman. It is an honor to be 
here today on behalf of the more than 4.5 million moms and 
dads, sons and daughters, in every State across our Nation, who 
make up the National Rifle Association of America. There are 
4.5 million active members of the NRA, and they are joined by 
tens of millions of supporters throughout the country.
    It is on behalf of those millions of decent, hard-working, 
law-abiding citizens that I am here today to give voice to 
their concerns.
    The title of today's hearing is ``What Should America Do 
About Gun Violence? '' We believe the answer to that question 
is to be honest about what works and honest about what does not 
work.
    Teaching safe and responsible gun ownership works, and the 
NRA has a long and proud history of doing exactly that.
    Our ``Eddie Eagle'' child safety program has taught 25 
million young children that if they see a gun, they should do 
four things: ``Stop. Do not touch it. Leave the area. And call 
an adult.'' As a result of this and other private sector 
programs, fatal firearm accidents are at the lowest levels in 
more than 100 years.
    The NRA has over 80,000 certified instructors who teach our 
military personnel, law enforcement officers, and hundreds of 
thousands of other American men and women how to safely use 
firearms. We do more--and spend more--than anyone else on 
teaching safe and responsible gun ownership.
    We joined the Nation in sorrow over the tragedy that 
occurred in Newtown, Connecticut. There is nothing more 
precious than our children. And we have no more sacred duty 
than to protect our children and to keep them safe. That is why 
we asked former Congressman and Under Secretary of Homeland 
Security, Asa Hutchinson, to bring in every available expert to 
develop a model School Shield Program--one that can be 
individually tailored to make our schools as safe as possible.
    It is time to throw an immediate blanket of security around 
our children. About a third of our schools right now have armed 
security already--because it works--and that number is growing 
every day. Right now, State officials, local authorities, and 
school districts in all 50 States are considering their own 
plans to protect children in schools.
    In addition, we need to enforce the thousands of gun laws 
already on the books. Prosecuting criminals who misuse firearms 
works. Unfortunately, we have seen a dramatic collapse in 
Federal gun prosecutions in recent years. Overall in 2011, 
Federal weapons prosecutions per capita were down 35 percent 
from their peak in the previous administration. That means 
violent felons, violent gang members, and drug dealers with 
guns and the mentally ill who possess firearms are not being 
prosecuted. And that is completely and totally unacceptable.
    And out of more than 76,000 firearms purchases supposedly 
denied by the Federal instant check system, only 62 were 
referred for prosecution and only 44 were actually prosecuted. 
Proposing more gun laws, while failing to enforce the thousands 
we already have, is not a serious solution for reducing crime.
    I think we can also agree that our mental health system is 
broken. We need to look at the full range of mental health 
issues, from early detection and treatment, to civil commitment 
laws, to privacy laws that needlessly prevent mental health 
records from being included in the National Instant Criminal 
Background Check System.
    While we are ready to participate in a meaningful effort to 
solve these pressing problems, we must respectfully--but 
honestly and firmly--disagree with some Members of the 
Committee, many in the media, and all of the gun control groups 
on what will keep our kids and keep our streets safe.
    Law-abiding gun owners will not accept blame for the acts 
of violent or deranged criminals. Nor do we believe the 
Government should dictate what we can lawfully own and use to 
protect our families.
    As I said earlier, we need to be honest about what works 
and what does not work. Proposals that would only serve to 
burden the law-abiding have failed in the past and will fail in 
the future.
    Semiautomatic firearms have been around for over 100 years. 
They are among the most popular guns for hunting, target 
shooting, and self-defense. Despite this fact, Congress banned 
the manufacture and sale of hundreds of semiautomatic firearms 
and magazines from 1994 to 2004. Independent studies, including 
one from the Clinton Justice Department, proved that it had no 
impact on lowering crime.
    And when it comes to background checks, let us be honest. 
Background checks will never be universal because criminals 
will never submit to them.
    But there are a lot of things that can be done, and we ask 
you to join with us. The NRA is made up of millions of 
Americans who support what works . . . the immediate protection 
for all--not just some--of our school children; swift, certain 
punishment of criminals who misuse guns; and fixing our broken 
mental health system.
    We love our families. We love our country. We believe in 
our freedom. We are the millions from all walks of life who 
take responsibility for our safety and protection as a God-
given, fundamental American right.
    Thank you, Mr. Chairman.
    [The prepared statement of Wayne LaPierre appears as a 
submission for the record.]
    Chairman Leahy. Thank you.
    Now, Chief Johnson, let me begin with you, sir, if I could. 
I find in my experience that many criminals are able to get 
guns illegally because they use straw purchasers. In other 
words, a person who has no criminal record, can easily pass a 
background check, goes in and buys the guns, then turns around 
and gives them to criminals.
    But there is no Federal law that makes it illegal to act as 
a straw purchaser of firearms. So last week, I introduced a 
bill that will strengthen Federal law to combat firearms 
trafficking. It would specifically target straw purchasers.
    Do you think there should be such a law?
    Chief Johnson. The background procedures in this Nation are 
seriously in need of modification. Again, 40 percent of those 
acquiring firearms try to do it outside that background 
procedure.
    Senator, you are absolutely correct. Many will use a straw 
purchaser to go in and acquire these firearms. It happens each 
and every day across America. It is a serious problem. And the 
National Law Enforcement Partnership to Prevent Gun Violence 
supports your initiative to address that issue.
    Chairman Leahy. Thank you, Chief.
    We also heard testimony about the safety of women and gun 
violence. Now, I am seeking immediate consideration of the 
Leahy-Crapo Violence Against Women Reauthorization Act. I was 
told yesterday that sometime in the next couple weeks we will 
have it on the floor of the Senate for a vote. I do this 
because of concern for domestic violence victims. We have 
statistics that show women in this country are killed at an 
alarming rate by domestic abusers with guns.
    Unfortunately, if a woman has a protective order against 
her abuser, if he is able to get a gun through a straw 
purchaser, of course, he still gets it, but he is not going to 
be able to purchase a gun if a background check is conducted. 
And we have at least one study that says that in States that 
require a background check for every handgun sale, 38 percent 
fewer women are shot to death by their partners.
    Now, do you agree that if we want to keep firearms away 
from domestic abusers who are not supposed to have them anyway, 
we have to improve the background check system and require a 
background check for every firearm purchaser?
    Chief Johnson. Absolutely. I would like to stand in front 
of this group today and say I have spent my years chasing down 
violent armed robbers each and every day. The fact of the 
matter is that as a young patrol officer, most of my day was 
one domestic to another. It was the post that I had. Statistics 
show that when females are killed, it is more likely, over 50 
percent of the time, to be by a spouse or household member. A 
gun in a home where there is a history of domestic violence, 
statistics show that there is a 500-percent increase or chance 
that that person will be victimized by gun violence.
    The State of Maryland in the last several years enacted 
legislation to address this domestic violence issue to allow us 
to go out and seize the guns of domestic violence abusers where 
the spouses went and obtained a protective order. This has been 
very effective, and in my jurisdiction, which averages 
generally about 35 homicides a year--unfortunately, most being 
domestic violence related--this had a significant impact in 
reducing the amount of those domestics. Two of the last 3 
years, the statistic was below the 41-year homicide rate, and I 
credit in this case the Lieutenant Governor of the State of 
Maryland, Lieutenant Governor Brown, for this initiative, and 
it has helped us tremendously.
    Chairman Leahy. Thank you.
    Captain Kelly, Mr. LaPierre has testified that universal 
background checks would not work because criminals would never 
submit to them, and I understand that. But under current law, 
criminals do not have to go through background checks because 
there are so many loopholes--the gun show loophole, no real 
punishment for straw purchases.
    Do you agree that there is nothing we can do to strengthen 
our background checks?
    Captain Kelly. Chairman Leahy, I disagree. I mean, there is 
a lot we can do. The situation that I know best is what 
happened in Tucson on January 8th of 2011. Jared Loughner, the 
shooter in this case, when he purchased a gun, he did purchase 
it through a background check. But there was a lot of evidence 
that could possibly have been in the National Instant Criminal 
Background Check System about him that would have prevented him 
from buying a gun through a background check. So that is part 
of the solution.
    Now, the other problem, let us say he was denied, denied 
the purchase of the gun, which he purchased in November 2010. 
It would have been very easy for him to go to a gun show and 
purchase a gun without a background check.
    So, you know, there are several things that need to be 
done, and in my opinion and in Gabby's opinion, this was one of 
the most important things that we must do to prevent criminals, 
terrorists, and the mentally ill from having easy access to 
guns. Closing the gun show loophole and requiring private 
sellers to require a background check before they transfer a 
gun is--for us, I mean, I cannot think of something that would 
make our country safer than doing just that.
    Chairman Leahy. Thank you.
    Mr. LaPierre, in 1999, you testified before the House 
Judiciary Committee, and you testified, ``Nobody is more 
committed than we are to keeping guns out of criminals' hands. 
That is obviously in our best interest.''
    I assume you are still just as committed to keeping guns 
out of the hands of criminals. Is that correct?
    Mr. LaPierre. Yes, sir.
    Chairman Leahy. And would you agree that we should 
prosecute and punish those who help criminals get guns?
    Mr. LaPierre. If you are talking about straw man sales, we 
have said straw man sales should be prosecuted for years. There 
are about six to eight statutes on the books right now----
    Chairman Leahy. So you agree that we should prosecute and 
punish those who help criminals get guns?
    Mr. LaPierre. If someone is doing a straw man sale, they 
should be prosecuted, absolutely.
    Chairman Leahy. Now, in your testimony in 1999, you 
supported mandatory instant criminal background checks for 
every sale at every gun show. You said, ``No loopholes anywhere 
for anyone.'' Now, today, of course, you said criminals would 
never submit to background checks. Statistics show that plenty 
of them do. Nearly 2 million convicted criminals and other 
dangerous people tried to buy a firearm since 1994, as Chief 
Johnson said, and were prevented.
    So let me ask you this: Do you still, as you did in 1999, 
support mandatory background checks at gun shows? Yes or no.
    Mr. LaPierre. We supported the National Instant Check 
System on dealers. We were here when Senator Birch Bayh, one of 
your colleagues, held hearings in terms of who would be a 
dealer and who would be required to have a license. If you did 
it for livelihood and profit, yes; if you were a hobbyist, no.
    Chairman Leahy. Let us make it easier, though. I am talking 
about gun shows. Should we have mandatory background checks at 
gun shows for sales of weapons?
    Mr. LaPierre. If you are a dealer, that is already the law. 
If you are talking----
    Chairman Leahy. That is not my question. Please, Mr. 
LaPierre. I am not trying to play games here, but if you could 
answer, it would help. Just answer my question.
    Mr. LaPierre. Senator, I do not believe the way the law is 
working now, unfortunately, that it does any good to extend the 
law to private sales between hobbyists and collectors.
    Chairman Leahy. Okay. So you do not support mandatory 
background checks in all instances at gun shows.
    Mr. LaPierre. We do not, because the fact is the law right 
now is a failure the way it is working. The fact is you have 
76,000-some people that have been denied under the present law. 
Only 44 were prosecuted. You are letting them go. They are 
walking the streets.
    Chairman Leahy. Then do I understand back in 1999 you said 
no loopholes anywhere for anyone, but now you do not support 
background checks for all buyers of firearms?
    Mr. LaPierre. I think the National Instant Check System, 
the way it is working now, is a failure because this 
administration is not prosecuting the people that they catch. 
They are not--23 States are not even putting the mental records 
of those adjudicated mentally incompetent into the system.
    Now, assume that if you do not prosecute and they try to 
buy a gun, even if you catch them, and you let them walk away, 
to assume they are not going to get a gun, they are criminals, 
they are homicidal maniacs, and they are mentally ill, I mean, 
we all know that homicidal maniacs, criminals, and the insane 
do not--do not----
    Chairman Leahy. Mr. LaPierre----
    Mr. LaPierre [continuing]. Abide by the law.
    Chairman Leahy. My time is up. With all due respect, that 
was not the question I asked, nor did you answer it.
    Mr. LaPierre. But I think it is the answer. I honestly do. 
The fact----
    Chairman Leahy. It is your testimony.
    Senator Grassley.
    Senator Grassley. Before I ask questions, Senator Hatch 
asked if I would explain to everybody here why he left. He is 
Ranking Member of the Finance Committee, and Senator Baucus has 
scheduled a hearing for 10:45, and he has to be there for that.
    Professor Kopel, was the 1994 assault weapons ban a 
sensible and effective means of reducing gun violence? And, 
second, is there any reason to re-enact a more extensive 
assault weapons ban?
    Professor Kopel. Based on the Department of Justice study, 
the answer was no, that it was something that was tried with 
great sincerity, a lot of people thought it would be a good 
idea, but it did not seem to save any lives that the 
researchers could find.
    The revised law is just more of the same, but it suffers 
from the same fundamental problem. You can have a 1994 law that 
lists some guns by name and a 2013 law that lists more guns by 
name. But the very fact that you are banning guns by name, that 
is just an example of how the law does not address the guns' 
firepower or their rate of fire. It simply--if there is 
something that makes these guns more dangerous, then 
legislation ought to be able to describe it in neutral terms. 
So all these names I think are a sign of exactly what is wrong 
with the bill.
    Now, the present bill, like its 1994 predecessor, also 
outlaws things based on various features. But, again, these are 
not things that have to do with the internal mechanics of the 
gun, how fast it fires, or how powerful the bullets are. They 
are things like whether a rifle has a forward grip. Well, a 
forward grip on a rifle helps the user stabilize it and make 
the gun more accurate so that, if you are deer hunting, the 
second shot is almost as accurate as the first, or if you are 
target shooting or, more importantly, most importantly, if you 
are engaged in lawful self-defense. And that is why you see 
guns like the AR-15 with their standard factory-issued 30-round 
magazines in police cars all over the country, because they 
make the gun more accurate for the core purpose of the Second 
Amendment, which is lawful self-defense.
    Senator Grassley. Okay. Chief Johnson and Professor Kopel, 
listen while I read, and I will ask each of you a question. 
Recently, Iowa law enforcement officials were quoted in an 
article that I ask consent to include in the record entitled 
``Law officers tell Congressman mental health issues more 
important than gun ban.'' In it, a bipartisan group of elected 
sheriffs and police chiefs offered candid assessments of 
current legislative proposals. One chief of police stated, ``I 
think banning assault weapons and high-capacity magazines is 
strictly a feel-good measure. It is not going to accomplish 
anything.''
    Instead, they asked for options for getting mentally ill 
individuals treatment. Chief Jim Clark, Ottumwa, Iowa, added, 
``We identify some that are mentally ill, they need treatment, 
but we cannot access the system.''
    So, Chief Johnson, what options do your officers have from 
your experience--because I quoted Iowa--currently have in 
dealing with individuals they believe to have untreated mental 
illness?
    Chief Johnson. It is a major problem in America today and 
in my jurisdiction. I am here today to talk about guns and ways 
to stop gun violence, and we know a comprehensive background 
check that picks up these mental health issue disqualifiers 
will make our Nation a safer place. We know that banning high-
capacity magazines will make our police officers safer. We have 
lost dozens of police officers in America due to assault 
weapons, and we have seen tragedies all across this great 
Nation--Aurora, Newtown, and Webster, New York. An off-duty 
police officer--you are never off duty. He was a police officer 
shot down by an assault weapon. It is a serious problem, and it 
must be addressed.
    Senator Grassley. Professor Kopel, you authored an article 
in the Wall Street Journal last month entitled ``Guns, Mental 
Illness, Newtown.'' And I would also like to have that included 
in the record.
    Is there evidence that mental illness and changes to civil 
commitment laws play a part in mass shootings? And what can we 
do to keep guns away from the mentally ill consistent with our 
Second Amendment?
    Professor Kopel. Well, certainly they play quite a major 
role in homicides in general. According to the Department of 
Justice research, about one-sixth of the people in State 
prisons for homicide are mentally ill. If you look at these 
mass murders where suicidal people try to end their lives in 
the most infamous way possible, in Tucson, Virginia Tech, 
Newtown, Aurora, you have a very strong thread of mental 
illness running through that. And certainly improving the 
background--the data about mental health adjudications, not 
just a psychiatrist's recommendation or something like that, 
but what due process and the Constitution require, which is an 
adjudication, a fair decision by a neutral decisionmaker, 
getting those into the background check system is something 
that Congress started working on after Virginia Tech, and there 
is more progress to be made.
    But it is not just a matter of checks. Even if you have the 
most ideal check system in the world, at the least--and imagine 
these criminals, violent, insane criminals, could never get a 
gun anywhere else--you know, Adam Lanza at Newtown did not have 
background checks. He stole the guns after murdering his 
mother. So the long-term solution is not just about background 
checks. It is about why are these people on the streets in the 
first place.
    All of these killers I have just mentioned could have been 
civilly committed under the civil commitment laws we had 
several decades ago. Those laws were changed because they were 
sometimes abused. But I think we can move back to a more 
sensible position that strongly protects the due process rights 
of people against involuntary commitment, but also gets 
dangerous people off the streets. And that will cost money at 
the State level, but it is money that will be greatly saved in 
the long term through reduced incarceration costs for crimes.
    Senator Grassley. Okay. Ms. Trotter, your testimony 
discussed the need for women to be able to use firearms to 
defend themselves and their families. The law currently permits 
the lawful possession of semiautomatic rifles such as AR-15s. 
Can you tell us why you believe a semiautomatic rifle such as 
an AR-15 has value as a weapon of self-defense? And does 
banning guns which feature designed to improve accuracy 
disproportionately burden women?
    Ms. Trotter. I believe it does. Young women are speaking 
out as to why AR-15 weapons are their weapon of choice. The 
guns are accurate. They have good handling. They are light. 
They are easy for women to hold. And most importantly, their 
appearance. An assault weapon in the hands of a young woman 
defending her babies in her home becomes a defense weapon, and 
the peace of mind that a woman has as she is facing three, 
four, five violent attackers, intruders in her home, with her 
children screaming in the background, the peace of mind that 
she has knowing that she has a scary-looking gun gives her more 
courage when she is fighting hardened, violent criminals. And 
if we ban these types of assault weapons, you are putting women 
at a great disadvantage, more so than men, because they do not 
have the same type of physical strength and opportunity to 
defend themselves in a hand-to-hand struggle. And they are not 
criminals. They are moms. They are young women. And they are 
not used to violent confrontations.
    So I absolutely urge--I speak on behalf of millions of 
American women across the country who urge you to defend our 
Second Amendment right to choose to defend ourselves.
    Senator Grassley. Thank you.
    Chairman Leahy. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman, for 
holding this hearing, and I want to thank everybody for being 
here, particularly our witnesses, even you, Mr. LaPierre. It is 
good to see you again.
    [Laughter.]
    Senator Feinstein. I guess we tangled----
    Mr. LaPierre. We have.
    Senator Feinstein. We tangled, what was it, 18 years ago? 
You look pretty good, actually.
    Chairman Leahy. I will give a little prerogative to the 
laughter, but please go ahead.
    Senator Feinstein. I would like to add something to the 
record, Mr. Chairman, page 44 of the Department of Justice 
report, Assault Weapons as a Percentage of Gun Traces, which 
shows a 70-percent decline from 1992-93 to 2001-02.
    Chairman Leahy. Without objection, so ordered.
    Senator Feinstein. Thank you. Thank you very much.
    [The information referred to appears as a submission for 
the record.]
    Senator Feinstein. Chief Johnson, I would like to talk with 
you. First of all, I am very grateful for the support of your 
organization, of the Major Chiefs, and the International 
Association of Chiefs of Police, as well as trauma surgeons who 
see what these guns do in tearing apart bodies.
    I have become very concerned, as I looked at the bill 
before in 1993, at the technological improvement in these 
weapons over these years. And one of the things that we have 
tried to do in this new bill is prevent that from happening in 
the future.
    In looking at the AR-15 magazine on a device which is legal 
called a ``slide fire,'' I note that, with practice, a shooter 
may control his rate of fire from 400 to 800 rounds per minute 
or shoot 2, 3, or 4 rounds at a time and just as easily fire 
single shots.
    So this is a weapon--and I think Ms. Trotter is right. It 
apparently is versatile. It apparently is rather easy to use. 
But it has tremendous velocity and tremendous killing power and 
I suspect tears young bodies apart.
    Additionally, it is my understanding that Mrs. Lanza 
actually gave this gun to her son. Is that correct?
    Chief Johnson. These guns used in Newtown were not stolen, 
Professor. They were in the home, accessible to the shooter.
    Senator Feinstein. Thank you.
    Chief Johnson. It is a major problem, safety and security 
of weapons. In my jurisdiction, two school shootings, safety 
and security of the weapons would have made a difference in 
that case. And, Senator, your bill, I salute and applaud you 
for including a safety and security measure.
    Senator Feinstein. Well, thank you very much, Chief. This 
is such a hard debate because people have such fixed positions. 
Police, I think, see killings as they are. Many people do not. 
So in a sense, the straight speak about this issue, the more 
you add highly technologically efficient weapons which are 
originally designed to kill people in close combat, and they 
fall in the hands of the wrong people.
    It is my understanding that Mrs. Lanza's son, the shooter 
in this case, had no mental health record. Is that correct?
    Chief Johnson. It is my understanding that no record 
exists. It is my understanding that there was ample evidence, 
though, amongst those close to him that there was a serious 
problem.
    Senator Feinstein. Which is really something that I think 
we need to tackle today. Mental health laws are usually the 
preserve of the State and the local governments. They provide 
the facilities. Do you have any suggestions there with respect 
to anything that we might be able to do to improve mental 
health laws nationally which might catch people who are a 
danger to themselves or others in this area?
    Chief Johnson. This is a major problem for law enforcement. 
Citizens, police officers, doctors, parents can petition for an 
emergency evaluation when they see behavior that presents an 
individual as being a danger to themselves or others, and it is 
really important that we all do this. And it is a tough 
decision, but sometimes you have to make it against your own 
son. Very, very hard. It could affect their entire life. But it 
has to be done.
    The improvement that needs to be made is we have to have 
this information entered instantly into a data system in the 
event that the individual tries to go out within 24 hours to 
get a gun.
    The fellow in Wisconsin that went into the salon to shoot 
his wife, he wanted a gun fast. He wanted it fast. He was hot. 
He was emotional. He was out of control. And he wanted to get a 
gun fast, and the way you do that is you reach out outside the 
established background check system and acquire it. If that 
record would have been entered into the system, the domestic 
violence order, it would have been entered instantly, like we 
can do today in many areas, that gun could have--a gun could 
have been prevented from getting in the hands of a person who 
is going to carry it out when they are at a high emotional 
stage. This is really, really important.
    Senator Feinstein. We have millions and millions of big 
clips. The Aurora shooter used a 100-round drum. Fortunately, 
it jammed; otherwise, he would have killed more people. I think 
most people believe that, sure, we could have guards at 
schools. I am well aware that at Columbine there was a deputy 
sheriff who was armed who actually took a shot but could not 
hit the shooter there. The question comes: What do you do about 
the malls then? What do you do about our movie theaters? What 
do you do about businesses? We cannot have a totally armed 
society. And that is my feeling in terms of the need to say 
that there are certain categories of guns.
    We actually exempt over 2,000 specific weapons by make and 
model name to create and then ban about 158 assault weapons and 
go to a one-characteristic test.
    You have looked at this bill. Do you believe it will be 
effective?
    Chief Johnson. Yes, ma'am, I do. I believe that 
holistically addressing all the issues in the President's plan 
as well as a comprehensive universal background check 
procedure, banning high-capacity magazines, and banning the 
sale of assault weapons, frankly, collectively, all these 
together will create a system. The best way to stop a bad guy 
from getting a gun in the first place is a good background 
check.
    Senator Feinstein. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    As Senator Grassley noted, Senator Hatch has to be at 
another thing. I will recognize him when he comes back. I am 
going to go back and forth going by seniority, and we will go 
to Senator Sessions. But I will also announce that all Members 
can put statements in the record by the close of business today 
as though read.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I have spent the better part of my career, I guess, 
prosecuting cases, 12 years as a United States Attorney, and 
during that time I gave a high emphasis to prosecutions of gun 
violations. We were one of the top prosecuting districts in the 
country.
    I note in the latest University of Syracuse report, they 
list my district, the Southern District of Alabama, as number 
one in the Nation still today in prosecution of gun violations.
    This is what the University of Syracuse study said, 
however, in its lead comment: ``Weapons prosecutions declined 
to the lowest level in a decade.''
    ``The latest available data from the Justice Department 
show that during January 2011 the government reported 484 new 
weapons prosecutions. This is the lowest level to which Federal 
weapons prosecutions have fallen since January 2001, when they 
were 445 at the time President Bush assumed office.''
    They go on to note some of the declines in various 
categories, and so, first and foremost, I would say to you as 
someone who has personally tried a lot of these cases before a 
jury, written appellate briefs on these cases, that the bread-
and-butter criminal cases are felons in possession of a firearm 
and carrying a firearm during a crime, both of which are 
serious offenses. Carrying a firearm during a crime, drug crime 
or crime of violence or other serious crimes, is a mandatory 5-
year sentence without parole. Those prosecutions have declined, 
unfortunately, substantially under President Obama's 
Presidency.
    Chief, does it concern you that comparing total 
prosecutions per month for guns in Federal court with those per 
month in 2011 with those for the same period in 2010, the 
number of filings went down 7.9 percent and were down 28.8 
percent from 2006 in Federal court? Does that concern you?
    Chief Johnson. Senator, I can tell you that in the 
Baltimore County Police Department----
    Senator Sessions. I just asked you if those are the 
numbers, does that concern you?
    Chief Johnson. No, because you do not----
    Senator Sessions. It does not concern you?
    Chief Johnson. Sir, you are not including local 
prosecutions. I cannot stand before you today and tell you of a 
single case in Baltimore County of an illegally possessed gun 
that was not prosecuted at the State level----
    Senator Sessions. Well, are we trying to pass a Federal law 
today or a State law?
    Chief Johnson. Certainly background checks----
    Senator Sessions. That is what you are calling for, is a 
Federal law. We would like to see the Federal laws on the books 
enforced, I suggest.
    And with regard to the crimes of carrying a firearm during 
the furtherance of a violent or drug-trafficking offense, those 
prosecutions declined 27.5 percent between 2007 and 2011. So I 
would just say, first of all, we need to make sure we are doing 
our job there.
    I would also note that although crime is a very, very 
important matter, we should never lose our emphasis on bringing 
down crime. The murder rate in America today is half what it 
was in 1993. We have made progress on that, and we can continue 
to drive those numbers down. It is not as if we have an unusual 
surge in violent crime in America.
    Now, with regard to the background checks and straw 
purchases, let us be frank. Straw purchases are a problem and 
should be prosecuted. I have prosecuted those cases before on a 
number of occasions. I prosecuted gun dealers who failed to 
keep records as required by the law. But the number of 
defendants charged under 18 U.S.C. 922(a)(6), making material 
misrepresentations under the Federal firearms law regarding the 
lawfulness of a transfer, has declined from 459 in 2004 to 218 
in 2010. That is about half, a 52-percent decline under this 
administration's leadership.
    I would just say to you, mathematically speaking, violence 
in America is impacted mostly when you are enforcing these 
bread-and-butter violations that are effective, they are 
proven, and they work. They have the support of Mr. LaPierre, I 
think. I know that group supports them. I think everybody 
supports these strong laws, and that is where the rubber meets 
the road. That is where you really begin to impact crime. If 
you can intimidate--and I believe the word is getting out. It 
did in our district, that if you carry a gun in a crime, a 
drug-dealing offense, you could be prosecuted in Federal court, 
given 5 years in jail without parole. And I believe we saw a 
decline in the violence rate and the number of drug dealers and 
criminals carrying guns. But you have to prosecute those cases.
    Mr. LaPierre, it does appear that the straw purchase 
prohibition that is out there, that prohibition seems to me to 
be legitimate, and I support and you said you support the 
prosecutions of it. If we expand the number of people covered, 
but we do not have any prosecutions--I believe you used the 
number 44 was all--there are 90 United States Attorneys in 
America, only 44, only one out of every two apparently is 
prosecuting a single case in a single year. That is the 
weakness in the system.
    Mr. LaPierre. Senator, there needs to be a change in the 
culture of prosecution at the entire Federal level. It is a 
national disgrace. The fact is we could dramatically cut crime 
in this country with guns and save lives all over this country 
if we would start enforcing the thousands of Federal laws we 
have on the books. I am talking about drug dealers with guns, 
gangs with guns, and felons with guns. They are simply not 
being enforced. The numbers are shocking.
    In Chicago, one of the worst areas in the country in gun 
violence by criminals, it is 89 of 90 in terms of Federal 
prosecutions.
    In the entire United States, 62 people prosecuted for lying 
on the Federal background check. I mean, when Dave Schiller and 
Project Exile cleaned up Richmond years ago, they did 350 cases 
in Richmond. I mean, if you want to stop crime, interdict 
violent criminals, incarcerate them, get them off the street 
before they get to the next crime scene.
    Senator Sessions. Well, I agree.
    Mr. LaPierre. Or worse.
    Senator Sessions. My time is up. Richmond was a great 
model, and I would just say I would call on President Obama to 
call in Attorney General Eric Holder and ask him why the 
prosecutions have dropped dramatically across all categories of 
Federal gun laws. And he should call in his United States 
Attorneys and tell them, ``You need to look at your numbers and 
get them up and emphasize these prosecutions.''
    Thank you, Mr. Chairman.
    Chairman Leahy. Senator Schumer.
    Senator Schumer. Well, thank you.
    First, let me apologize to the witnesses. We have a Finance 
Committee meeting on reconciliation, which probably affects our 
police chief anyway, and so I had to be there.
    And I want to thank you, Chairman Leahy, for organizing 
this important hearing.
    I thank all the witnesses for being here, particularly 
Congresswoman Giffords and Captain Kelly for your testimony. We 
have been moved by your strength, your courage that your family 
has demonstrated in the face of unspeakable tragedy. By being 
here instead of cursing the darkness, you are lighting a 
candle. Thank you.
    Now, I do believe today we have a chance to do something 
reasonable in the aftermath of the Sandy Hook tragedy. But when 
we discuss ways to stop violence, guns must be included in that 
discussion.
    I heard Ranking Member Grassley say that we must go beyond 
guns. That is true. But we must include guns as well. Not 
including guns when discussing mass killings is like not 
including cigarettes when discussing lung cancer.
    But at the same time, I agree. We cannot simply replay the 
usual zero sum political game on guns, or the moment will pass 
us by.
    The Supreme Court ruling in Heller, which struck down the 
District of Columbia's ban on handguns, laid out a good 
framework. It said an individual right to bear arms does exist, 
but it comes with limitations, like every amendment. In other 
words, it is now settled law that the Government is never going 
to take away Americans' guns.
    Progressives need not to accept this decision, but to 
endorse it. We have got to follow it, not just de jure but de 
facto. And it makes sense. You cannot argue for an expansive 
reading of amendments like the First, Fourth, and Fifth, but 
see the Second Amendment through the pinhole of saying it only 
affects militias.
    At the same time, those on the pro-gun side must recognize 
no amendment is absolute. The First Amendment protects freedom 
of speech. It is hallowed. But you still cannot falsely shout 
``Fire'' in a crowded theater or traffic in child pornography. 
Those are reasonable limits on the First Amendment.
    The Second Amendment has sensible limits, too. My 
colleagues have offered a range of impressive and thoughtful 
proposals on the topic of gun violence.
    For example, Chairman Leahy has introduced a bill on 
trafficking. Senator Feinstein has introduced one on assault 
weapons, Senator Blumenthal on ammunition.
    But for the last several years, my particular focus in the 
area of gun safety has been on responsible gun ownership and 
background checks. Universal background checks is a proven, 
effective step we can take to reduce gun violence. And I 
believe it has a good chance of passing. Federally licensed 
firearm dealers have been required to conduct background checks 
on prospective gun purchasers since we passed the Brady bill. 
And we have seen that they work. Since 1999, the Federal 
background check system has blocked 1.7 million prohibited 
purchasers from buying firearms at federally licensed dealers.
    Yes, we should prosecute them. But the number one goal is 
to prevent a felon from getting a gun in the first place. That 
is what this did 1.7 million times. The current system works 
well. But there are some glaring holes.
    First of all, not all gun sales are covered by a background 
check. The problem, sometimes referred to as ``the gun show 
loophole,'' means that a private seller could set up a tent at 
a gun show or somewhere else and not have to conduct background 
checks on his purchasers.
    Current estimates show that because of these loopholes 48 
percent of gun sales are made without a background check. If 
you are a felon, if you are a gun trafficker, if you are a 
mentally ill person, you know that you can go to a gun show and 
not have any check. So, of course, that is what they do.
    This is not fair, also, to dealers who follow the rules and 
conduct checks. The registered dealers at their gun stores have 
to obey the rules. Why should someone going to a gun show have 
a different rule? There is no logic to it. None. I was there. I 
was the author of the Brady bill, and that was something that 
we were forced to put in the bill, those of us who were not for 
it, as a way to get the bill passed. But the last 15 years has 
proven it does not make sense.
    The second problem with the current system is that not all 
records are fed into the system. This is especially true with 
mental health records. Nineteen States have submitted fewer 
than 100 mental health records to NICS.
    I think we can get bipartisan agreement on a bill that 
solves these problems by doing two things. One, it will prevent 
felons and the mentally ill from getting guns by requiring a 
background check before all purchases. And, two, it will get 
relevant records into the system.
    Now, at the moment, right now, as we meet here today, I am 
having productive conversations with colleagues on both sides 
of the aisle, including a good number with high NRA ratings. 
And I am hopeful that we are close to having legislation we can 
introduce.
    And I would urge the NRA, Mr. LaPierre, and other gun 
advocacy groups to work with us on this proposal. The NRA 
supported our 2007 legislation that improved the NICS 
background check system. And I hope they will reconsider and 
try to do that again.
    It is a simple, straightforward solution. It is one the 
American people support. A recent survey by the New England 
Journal of Medicine found 90 percent of the public and 74 
percent of NRA members support requiring background checks for 
all gun sales.
    I understand, because we have not introduced it, I cannot 
ask the witnesses about it, but I want to tell you what it will 
not do.
    It will not create any gun registry. That is already 
illegal, and it will be repeated as illegal in our law. That is 
particularly for Mr. Kopel. And it will not limit your ability 
to borrow your Uncle Willy's hunting rifle or share a gun with 
your friend at a shooting range.
    It will include reasonable exceptions to make sure we are 
only requiring background checks for bona fide sales and 
transfers. So specious claims about background checks are a 
tactic made by those who cannot argue with the facts.
    Now, I would like to ask Chief Johnson a question or two 
about those checks. Do you agree with the logic that even--you 
know, that we should prosecute people who illegally try to buy 
guns, but even without that, the law has done a whole lot of 
good because people who are felons or adjudicated mentally ill, 
millions have been stopped from buying guns and getting guns?
    Chief Johnson. Since 1994 to 2009, the record is very 
clear. It is a fact that nearly 2 million prohibited purchases 
were stopped. God only knows what they would have done with 
those weapons had it not been for that particular law.
    Senator Schumer. And from a law enforcement point of view, 
would not we rather--we want to do both, but would not we 
rather stop them from having a gun than after they shoot 
somebody or buy a gun illegally, then arrest them and put them 
in jail for that crime?
    Chief Johnson. Yes, sir. You have to address the pathology, 
how you get the gun in the first place. And that is what we are 
trying to achieve here by a universal background check. And I 
am very proud to stand before you this morning to let you know 
that the entire National Law Enforcement Partnership to Prevent 
Gun Violence, every member of our organization supports 
background checks.
    Senator Schumer. Right. And does it make any sense to 
exclude the same people who sell them in a gun shop or others 
to go to a gun show and not have any background check at all?
    Chief Johnson. It is absolutely insane. Again, it is like 
letting 40 percent of people just pass a TSA checkpoint at an 
airport. It is not an inconvenience. The record shows that 
nearly 92 percent of the individuals that go in to try to do a 
background check at a gun shop, in a minute and a half they are 
done. I cannot write a ticket, a citation in a minute and a 
half. Even with e-tick technology, I cannot do it that fast.
    It is not inconvenient. And it is fair to the gun owner and 
the shop owner, too. Why impose on a shop owner, a gun dealer, 
a federally licensed dealer, more restrictions than you do on 
anyone else? And if you think for a minute you can sell your 
gun to your neighbor that you have known for 10 years, you do 
not know your neighbor. You do not know your neighbor. And the 
only way to make sure that you are safe in what you are doing 
is a comprehensive background check.
    Senator Schumer. One final quick question. Many police 
officers are avid sportsmen. They enjoy shooting, not in their 
official professional duties. The surveys show the overwhelming 
majority of gun owners are for background checks. Does your 
personal experience corroborate that?
    Chief Johnson. It is my understanding that 74 percent of 
NRA members support a background check. I am a hunter. I love 
to hunt. I own several guns. I love going to the range with my 
son who is a police officer today. It is enjoyable. I have met 
many great people.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    I understand we are not going to go in quite the order we 
said before, but Senator Graham has graciously said Senator 
Cornyn could go. So please, Senator Cornyn.
    Senator Cornyn. Well, thank you, Mr. Chairman, and thanks 
to all of the witnesses for being here today and sharing your 
observations and testimony. I am particularly gratified to see 
Congresswoman Giffords here doing so well and speaking so 
forcefully.
    I hope this hearing serves as a starting point for us to 
consider a range of ideas on this topic. Anything that falls 
short of serious examination and discussion is just window 
dressing, just symbolism over substance. I have a hard time 
telling my constituents in Texas that Congress is looking at 
passing a whole raft of new laws when the laws that we 
currently have on the books are so woefully unenforced.
    I think we can and we should come together to address the 
shortcomings in mental health care, both in the general 
response to mental illness and also in the background checks 
mechanisms we use to screen out prohibited gun buyers.
    We need to ask whether years of deinstitutionalization of 
the mental health population have left America more vulnerable. 
Perhaps it is time to consider our background check laws to see 
if they need to be updated to screen out the growing number of 
people who are subjected to court-ordered outpatient mental 
health treatment.
    It is unclear whether the tens of thousands of committed 
outpatients in this country are falling through the cracks, and 
surely, we can agree that more needs to be done to enforce 
existing gun laws, as I said a moment ago.
    Gun crime prosecutions are down across the board, including 
enforcement of laws against lying on background checks. And, 
Mr. Chairman, I hope we will have a follow-on hearing where we 
will ask administration witnesses to come before the panel and 
to testify why the Department of Justice and other law 
enforcement agencies of the Federal Government are not 
enforcing laws that Congress has already passed.
    It is worth noting that 5 years ago, Congress was asking 
the same questions we are asking right now. In 2008, there was 
an attempt made to strengthen the background check laws 
following the murders at Virginia Tech. Looking back, we have 
to ask ourselves: Did those laws work? Well, the Government 
Accountability Office just last July gave it mixed reviews.
    The GAO reports that only a handful of States have taken 
seriously the responsibility to share mental health records. 
And I am pleased that Texas is highlighted by the GAO as 
outperforming other States in this area. But we have a long way 
to go.
    So I think there are areas where Congress can come together 
right now to examine the nexus between gun crime, violence, and 
mental health care. And I am willing to listen to serious 
ideas, not just window dressing, to try to come up with 
solutions.
    Captain Kelly, I noticed in your testimony you alluded to 
part of what I talked about, which is the fact that at the time 
in Arizona there were 121,000 records of disqualifying mental 
illness for people in Arizona that had not been subjected to 
background checks because the State had not sent that 
information to the Federal Government.
    Could you expand on the significance of that?
    Captain Kelly. Yes, sir. So in the case of Jared Loughner, 
the person who shot my wife and murdered six of her 
constituents, he was clearly mentally ill. He was expelled from 
Pima Community College because of that. There was nowhere for--
or his parents and the school did not send him anywhere to be 
adjudicated or evaluated with regards to his mental illness.
    Now, Mr. LaPierre earlier tried to make the point that 
criminals do not submit to the background checks. Well, Jared 
Loughner, the guy, the Tucson shooter, was an admitted drug 
user. He was rejected from the U.S. Army because of his drug 
use. He was clearly mentally ill. And when he purchased that 
gun in November, his plan was to assassinate my wife and commit 
mass murder at that Safeway in Tucson. He was a criminal--
because of his drug use and because of what he was planning on 
doing.
    But because of these gaps in the mental health system--now, 
in this case, those 121,000 records, I admit, did not include a 
record on him. But it could have. And if it did, he would have 
failed that background check.
    Now, obviously, in this case, he would have likely gone to 
a gun show or a private seller and avoided a background check. 
But if we close the gun show loophole, if we require private 
sellers to complete a background check, and we get those 
121,000 records and others into the systems, we will prevent 
gun crimes. That is an absolute truth. It would have happened 
in Tucson. My wife would not be sitting in this seat, she would 
not have been sitting here today, if we had stronger background 
checks.
    Senator Cornyn. Mr. LaPierre, you talked about the laws 
that are already on the books and the fact that the Federal 
Government has a poor record of enforcing current laws. And I 
fail to see how passing additional laws that the Department of 
Justice will not enforce is going to make America any safer.
    But let me just ask you to react briefly to these 
statistics. From 2007 to 2011, the Department of Justice has 
charged 13 percent fewer total firearms cases. In each of the 
years during that span, the current administration has brought 
fewer firearms prosecutions than the year before.
    In January 2011, only 484 new firearm prosecutions were 
initiated by the Department of Justice, the fewest number of 
prosecutions in 10 years. As far as background check 
prosecutions from 2006 to 2010, the number of investigations 
for unlawful possession decreased 26 percent. During the same 
period, 77 percent fewer NICS denials were referred by the 
Bureau of Alcohol, Tobacco, and Firearms for prosecution. 
Federal prosecutors declined 82 percent more cases over the 
same period. In 2010, out of the 76,125 denied background 
checks the FBI referred to the ATF, a verdict or plea was 
reached in just 13 cases.
    Would you give us your reaction to that record?
    Mr. LaPierre. I think it is tragic, Senator. I mean, the 
fact is, in the shadow of this Capitol, right under everyone's 
noses, in this building, right now there are drug dealers out 
in the street with guns violating Federal law, illegal. There 
is all kinds of drugs and cocaine being sold. By God, gangs are 
trafficking 13-year-old girls. And it goes on day after day 
after day.
    What we have got to do is interdict these people, get them 
off the street before they get to the next crime scene. I 
mean--and get in the real world in terms of checks. I mean, the 
fact is the NRA has been trying for 20-some years--Senator 
Schumer and I went back and forth on ``Face the Nation'' where 
I asked him if he would help get those adjudicated mentally 
incompetent into the system 20 years ago. He said yes, and they 
are still not in the system. And my point is, even if you turn 
up someone on an instant check that is a mentally ill person or 
a felon, as long as you let them go, you are not keeping them 
from getting a gun, and you are not preventing them from 
getting to the next crime scene.
    I mean, we have got to get in the real world of this 
discussion. The problem with gun laws is criminals do not 
cooperate with them. The mentally ill do not cooperate with 
them. So you have got to interdict, incarcerate, interdict, get 
in treatment, and do things that matter. And then you have got 
to put police officers in schools, armed security in schools. 
But let us do the things that work. Let us get serious about 
this.
    I mean, this discussion, I mean, I sit here and listen to 
it, and my reaction is how little it has to do with making the 
country and our kids safe and how much it has to do with this 
decade-long or two-decade-long gun ban agenda that we do not 
enforce the laws even when they are on the books. The Attorney 
General of the United States, Attorney General Eric Holder, 
during the Richmond program called it a ``cookie-cutter 
approach'' to solving crime that, you know, he really did not 
have a lot of enthusiasm about.
    I remember Senator Sessions held a hearing, and the 
Department of Justice testified, well, a drug dealer with a gun 
is a guppy, and we cannot really concentrate on guppies. Those 
guppies are what are ruining neighborhoods, destroying lives, 
and killing people. And we have got to confront their behavior, 
take them off the street because they do not obey all the laws 
that we have right now. We have got to get in the real world on 
what works and what does not work.
    My problem with universal background checks is you are 
never going to get criminals to go through universal background 
checks. For all the law-abiding people, you will create an 
enormous Federal bureaucracy, unfunded, all the law-abiding 
people in the country will have to go through it, pay the fees, 
pay the taxes. We do not even prosecute anybody right now who 
goes through the system we have. So we are going to make all 
those law-abiding people go through the system, and then we are 
not going to prosecute any of the bad guys when we catch one. 
And none of it makes any sense in the real world. We have 
80,000 police families in the NRA. We care about safety. We 
will support what works.
    Chairman Leahy. I am trying to be fair to everybody here, 
and certainly you are going to have a lot more chances to 
speak.
    Senator Durbin.
    Senator Durbin. Mr. LaPierre, that is the point. The 
criminals will not go to purchase the guns because there will 
be a background check. We will stop them from the original 
purchase. You miss that point completely.
    Mr. LaPierre. Senator----
    Senator Durbin. I think it is--it is basic.
    [Laughter.]
    Mr. LaPierre. Senator, I think you miss----
    Chairman Leahy. Let there be order.
    [Applause.]
    Mr. LaPierre. I think you are missing----
    Chairman Leahy. There will be order.
    Mr. LaPierre. If you do not prosecute them, you are not 
stopping them.
    Chairman Leahy. Please wait, everybody, for a moment. As I 
said earlier, there will be order in the Committee room.
    Senator Durbin, and then----
    Senator Durbin. I am going to give you a chance, but let me 
just say at the outset, Captain Kelly, thank you. Thank you for 
bringing that wonderful, brave wife of yours today to remind us 
what victims suffer from gun violence. What a heroic figure she 
is, and what a great pillar of strength you are to stand by her 
during this entire ordeal and her rehabilitation. We are so 
proud of her and of you.
    Captain Kelly. Thank you.
    Senator Durbin. And I say with some regret, there should 
have been a hearing just like this right after your wife, one 
of our own, a Member of Congress, was shot point-blank in the 
face at a town meeting in Tucson, Arizona.
    I am sorry it has taken 2 years for us to convene this 
hearing, but it took Newtown, Connecticut, to finally bring us 
to our senses and to open this national conversation. But I 
hope that you will extend to her our best wishes, our love, and 
our support for what she is doing today and what she has meant 
to all of us for this long period of time.
    I also want to say a word about an incident. There was a 
young lady from Chicago, Illinois, 15 years old. She attended 
King College Prep School in Chicago. She was an honor student 
and a majorette, and she marched in the inauguration last week 
here. It was the highlight of her young 15-year-old life.
    Yesterday, in a rainstorm after school she raced to a 
shelter. A gunman came in and shot her dead. Just a matter of 
days after the happiest day of her life, she is gone.
    A lot has been said about the city of Chicago, and I want 
to say a few words, too. Our biggest problem in Chicago, 
according to Superintendent McCarthy, who came to Chicago from 
New York, is that we are awash in guns.
    The confiscation of guns per capita in Chicago is six times 
the number of New York City. We have guns everywhere. And some 
believe the solution to this is more guns. I disagree.
    When you take a look at where these guns come from, 25 
percent plus are sold in the surrounding towns around the city 
of Chicago, not in the city.
    And you look over the last 10 or 12 years, of the 50,000 
guns confiscated in crimes, almost one out of ten crime guns in 
Chicago came to that city from Mississippi. Mississippi. Why? 
Because the background checks there, the gun dealers there are 
a lot easier than they are in other places. And they end up 
selling these guns in volume, and they come up the interstate 
and kill wantonly on the way.
    Here are the basics. I think we all agree--I hope we all 
agree--that the Supreme Court decision in Heller said we can 
have reasonable limitations on a Second Amendment right in 
terms of the type of weapon and the people who own them and the 
background checks on those people. It is something we 
desperately need to do.
    But we know now that 40 percent of the sales are not going 
through the background checks. That is a huge problem. It has 
created this abundance of weapons that are available.
    And the straw purchasers, I salute the chairman for 
addressing this issue on straw purchasers. It is one of the 
worst situations in our State and in the city of Chicago.
    I can point to one gun store--one gun store--in Riverdale, 
Illinois, that accounts for more than 20 percent of the crime 
guns in Chicago. Straw purchasers buy the guns there, and they 
end up in the hands of criminals in the city of Chicago. We got 
to put an end to this. Mr. Chairman, thank you for your bill.
    And let me ask--I am going to ask a question here of some 
of the panelists.
    Mr. LaPierre, I run into some of your members in Illinois, 
and here is what they tell me: ``Senator, you do not get the 
Second Amendment.'' Your NRA members say, ``You just do not get 
it. It is not just about hunting. It is not just about sports. 
It is not just about shooting targets. It is not just about 
defending ourselves from criminals,'' as Ms. Trotter testified. 
``We need the firepower and the ability to protect ourselves 
from our Government''--``from our government, from the police 
if they knock on our doors, and we need to fight back.''
    Do you agree with that point of view?
    Mr. LaPierre. Senator, I think without any doubt, if you 
look at why our Founding Fathers put it there, they had lived 
under the tyranny of King George, and they wanted to make sure 
that these free people in this new country would never be 
subjugated again and have to live under tyranny.
    I also think, though, that what people all over the country 
fear today is being abandoned by their Government, if a tornado 
hits, if a hurricane hits, if a riot occurs that they are going 
to be out there alone. And the only way they are going to 
protect themselves in the cold and the dark, when they are 
vulnerable, is with a firearm. And I think that indicates how 
relevant and essential the Second Amendment is in today's 
society to fundamental human survival.
    Senator Durbin. Well, Chief Johnson, you have heard it. The 
belief of NRA is the Second Amendment has to give American 
citizens the firepower to fight back against you, against our 
Government.
    Mr. LaPierre. That is not----
    Senator Durbin. So how do you conduct your business in 
enforcing the law and not knowing what is behind that door?
    Chief Johnson. I find it to be scary, creepy, and it is 
simply just not based on logic. Certainly, law enforcement 
across this Nation is well prepared to deal with any natural or 
man-made disaster that will occur. And, frankly, I just--I 
cannot relate to that kind of thinking.
    Senator Durbin. I cannot either. And I cannot relate to the 
need of that man in Aurora, Colorado, to have a 100-round drum, 
100 cartridges.
    Professor Kopel, do you think that is necessary for 
hunting, sports, target practice, even self-defense?
    Professor Kopel. It would be not legal for hunting in most 
States where there are limits on how many rounds you can have 
in a magazine. But as I think you have recognized, the Second 
Amendment is not primarily about hunting.
    What I have been talking about is what the Supreme Court 
said in District of Columbia v. Heller, which is what is the 
core of the Second Amendment, which is the firearms and their 
accessories which are commonly owned by law-abiding people for 
legitimate purposes.
    Senator Durbin. But let me tell----
    Professor Kopel. And those are not--and I am not talking 
about 100-round magazines. I am talking about what police 
officers carry, what citizens carry, semiautomatic handguns, 
typically with magazines of 11 to 19 rounds----
    Senator Durbin. But those are police officers.
    Professor Kopel [continuing]. And rifles.
    Senator Durbin. Those are members of our military.
    Professor Kopel. No, they are not military men. They are 
not coming to attack people. They are coming to protect people, 
and they want to protect--and citizens protect themselves the 
same way that police officers do.
    Senator Durbin. What I am trying to get to is this: If you 
can rationalize a 100-round drum that someone can strap onto a 
semiautomatic weapon, as it did in Aurora, Colorado, and turn 
it loose, killing dozens of people there, and saving lives only 
because it jammed, then you certainly ought to object to the 
laws that have been on the books for 80 years about machine 
guns. Why are they not allowed under the Second Amendment?
    Professor Kopel. According to Heller, because they are not 
commonly used by law-abiding citizens for legitimate purposes.
    Senator Durbin. And 100-round magazines are?
    Professor Kopel. You are the one who wants to talk about 
100-round magazines, and thank goodness----
    Senator Durbin. I sure do.
    Professor Kopel. Thank goodness he had a piece of junk like 
that that jammed, instead of something better made where he 
could have killed more people with it.
    Senator Durbin. Well, that is what it is all about, then?
    Professor Kopel. It is about saving----
    Senator Durbin. We are playing God here?
    Professor Kopel. It is about saving lives. It is about 
saving lives with ordinary magazines. Hundred-round magazines 
are novelties that are not used by police officers or hunters 
or most other people.
    Senator Durbin. Well, Captain Kelly----
    Professor Kopel. But what you are talking about banning, 
Senator, is normal magazines.
    Senator Durbin. Tell us about the lives that were saved in 
Tucson and what it had to do with magazines.
    Captain Kelly. The shooter in Tucson showed up with two 33-
round magazines, one of which was in his 9-millimeter. He 
unloaded the contents of that magazine in 15 seconds. Very 
quickly. It all happened very, very fast. The first bullet went 
into Gabby's head. Bullet number 13 went into a 9-year-old girl 
named Christina-Taylor Green, who was very interested in 
democracy and our Government and really deserved a full life 
committed to advancing those ideas.
    If he had a 10-round magazine--well, let me back up. When 
he tried to reload one 33-round magazine with another 33-round 
magazine, he dropped it. And a woman named Patricia Maisch 
grabbed it, and it gave bystanders time to tackle him. I 
contend if that same thing happened when he was trying to 
reload one 10-round magazine with another 10-round magazine, 
meaning he did not have access to a high-capacity magazine, and 
the same thing happened, Christina-Taylor Green would be alive 
today.
    I certainly am willing to give up my right to own a high-
capacity magazine to bring that young woman back, that young 
girl.
    Now, let me continue with what happened that day. In that 
15 seconds--or, actually, with the first shot, a man ran out of 
Walgreen's, a good guy with a gun, with the intent to do the 
right thing, an armed citizen. He came within--he admits that 
he came within about a half a second of shooting the man who 
tackled Jared Loughner and nearly killing him.
    I mean, we almost had this horrific mass murder followed up 
with a horrific accident. The horrific mass murder because of 
the high-capacity magazine and the horrific accident because of 
the armed person there who, with good intention, wanted to end 
something that was--that was going really bad.
    Senator Durbin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I think I am speaking for a lot of people when they say we 
are heartbroken when a family member is taken through an act of 
gun violence, whether it be a child or anyone else, but 
particularly children. That is just a heartbreaking episode in 
society. And I think most people would appreciate the fact that 
there are thousands, if not millions, of Americans who saved 
their families from home invasions or violent assault because 
they had a gun to protect themselves. And most of us are glad 
it ended well for you. So those are the two bookends.
    And you mentioned, Captain Kelly--and I very much 
appreciate your being here and your service to the country--
about you and your wife are reasonable Americans. I do not 
doubt that one bit. I am sure you are. The question is: Am I a 
reasonable American if I oppose this bill? Am I a reasonable 
American believing that the Constitution says guns commonly 
used by the population sold for legitimate purposes? Being a 
supporter of the Second Amendment, I do not want to own a gun 
to attack my Government. That is not what I think a legitimate 
purpose is.
    Let us talk about a real-world incident that happened in 
Loganville, Georgia, on January 4, 2013. My basic premise is 
that one bullet in the hand of a mentally unstable person or a 
convicted felon is one too many. Six bullets in the hands of a 
mother protecting her twin 9-year-olds may not be enough. So I 
have got a chart here. At the very top is a .38 revolver, and 
on the right is a 9-millimeter pistol that holds 15 rounds.
    Does everybody on the panel agree that a convicted felon 
should not have either one of those guns? Does everybody agree 
that a mentally unstable person should not have either one of 
those pistols? Okay. Common ground there.
    Put yourself in the shoes of the mother. The guy broke into 
the home. She ran upstairs. She hid in a closet. She got on the 
phone to the police. And she was talking to her husband in real 
time. The intruder broke into the home, had a crowbar, and he 
found them in the closet. And they were confronted face to 
face. According to media reports, her husband said, ``Shoot, 
shoot.'' She emptied the gun, a six-shot revolver. The guy was 
hit five of the six times. He was able still to get up and 
drive away.
    My question is: Put your family member in that situation. 
Would I be a reasonable American to want my family to have the 
15-round magazine in a semiautomatic weapon to make sure that 
if there are two intruders, she does not run out of bullets? Am 
I an unreasonable person for saying that in that situation the 
15-round magazine makes sense?
    Well, I will say I do not believe I am. So I can give you 
an example of where a 15-round magazine could make the 
difference between protecting a family if there is more than 
one attacker.
    Now, back to your point, Captain Kelly. In the situation 
you described, I do not want that person to have one bullet or 
one gun. And the point of regulating magazines is to interrupt 
the shooter. That is the point of all this.
    And I guess what I am saying is that we live in a world 
where there are 4 million high-capacity magazines out there or 
more. I think the best way to interrupt the shooter if they 
come to a schoolhouse is not to try to deny the woman in 
Atlanta the ability to have more than 10 rounds, but to have 
somebody like you, Chief Johnson, meet them when they come into 
the door. I think that is the best way to do it.
    Now, my good friend Joe Biden, who we have very spirited 
conversations about a lot of things, was online recently 
talking to someone in California who mentioned the fact, what 
if there is an earthquake out here and there is a lawless 
situation? In 1992, you had the riots in Los Angeles. I think 
it was the King event. But you could find yourself in this 
country in a lawless environment through a natural disaster or 
a riot, and the story was about a place called Koreatown. There 
were marauding gangs going throughout the area burning stores, 
looting and robbing and raping. And the Vice President said, in 
response to, ``That is why I want my AR-15,'' he said, ``No, 
you would be better off with a 12-gauge shotgun.''
    Well, that is his opinion and I respect it. I have an AR-15 
at home, and I have not hurt anybody, and I do not intend to do 
it. But I think I would be better off protecting my business or 
my family if there was law-and-order breakdown in my community, 
people roaming around my neighborhood, to have the AR-15, and I 
do not think that makes me an unreasonable person.
    Now, Ms. Trotter, when you mentioned that you are speaking 
on behalf of millions of women out there who believe that an 
AR-15 makes them safer, there were a lot of giggles in the 
room, and I think that explains the dilemma we have. The people 
who were giggling were saying to you, ``That is crazy. Nobody I 
know thinks that way.'' Which reminds me of the Harvard 
professor who said, ``I cannot believe McGovern lost. Everybody 
I know voted for him.'' And I bet there are people on our side 
that cannot believe Obama won because everybody they know voted 
against him.
    The point is that we have different perspectives on this. 
And the reason I am going to oppose the legislation, Chief 
Johnson, is because I respect what you do as a law enforcement 
officer. Has your budget been cut?
    Chief Johnson. Yes.
    Senator Graham. Do you think it will be cut in the future?
    Chief Johnson. I am optimistic that it will not.
    Senator Graham. Well, I hope you are right, but I can tell 
people throughout this land, because of the fiscal state of 
affairs we have, there will be less police officers, not more, 
over the next decade. Response times are going to be less, not 
more.
    So, Captain Kelly, I really do want to get guns out of the 
hands of the wrong people. I honest to God believe that if we 
just arbitrarily say nobody in this country can own a 10-round 
magazine in the future, the people who own them are the people 
we are trying to combat to begin with, and there can be a 
situation where a mother runs out of bullets because of 
something we do here.
    I cannot prevent every bad outcome, but I do know and I do 
believe in the bottom of my heart I am not an unreasonable 
person for saying that in some circumstances the 15-round 
magazine makes perfect sense and in some circumstances the AR-
15 makes perfect sense. And I think our efforts to solve a 
problem that exists in the real world out there from Washington 
by having more gun laws that really do not hit the mark, so to 
speak, politically or situationally, that we are off base, but 
this is why we have these hearings. And I really do appreciate 
the fact that we have these hearings.
    Professor ``Kopel''--``Koppel'' ?
    Professor Kopel. Either one.
    Senator Graham. Okay. Some people on our side say--and I 
will wrap this up, Mr. Chairman--that it is unconstitutional to 
put a limit on magazine size. Do you agree with that?
    Professor Kopel. I think if we follow Senator Schumer's 
approach and say we are going to follow what the District of 
Columbia v. Heller Supreme Court decision says, what that tells 
you is the core of the Second Amendment is the firearms and 
accessories that are commonly owned by law-abiding people for 
legitimate purposes.
    Senator Graham. Is it constitutional to say 10 rounds 
versus 15?
    Professor Kopel. Ten is plainly unconstitutional because, 
as I was trying to explain to Senator Durbin, magazines of up 
to 19 are common on semiautomatic handguns and up to 30 on 
rifles.
    Senator Graham. Okay. I will end with this, Mr. Chairman. I 
do not know if 10 versus 19 is common or uncommon. I do know 
that 10 versus 19 in the hands of the wrong person is a 
complete disaster. I do know that six bullets in the hands of a 
woman trying to defend her children may not be enough. So I do 
not look at it from some academic debate.
    Let us agree on one thing. One bullet in the hands of the 
wrong person we should all try to prevent. But when you start 
telling me that I am unreasonable for wanting that woman to 
have more than six bullets or to have an AR-15 if people are 
roaming around my neighborhood, I reject the concept.
    Chairman Leahy. Thank you, Senator.
    Senator Whitehouse. And then after Senator Whitehouse, 
Senator Lee. Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Mr. Chairman, I have heard testimony in this hearing that 
the Federal gun crime prosecutions number 62 per year, and 
that, ``We do not prosecute any.'' And I was surprised to hear 
that testimony because I was a United States Attorney. And in 
the time that I was United States Attorney, it became an 
absolute priority of the Department of Justice to prosecute 
firearms.
    So I went to every police department in my State to talk up 
what we could do with gun criminals. We set up a special 
procedure where the Attorney General's office, which has 
criminal jurisdiction in Rhode Island, and our office viewed 
gun crimes together to make sure they were sent to the place 
where they could get the most effective treatment. And I 
believe that that continues, although I am no longer a U.S. 
Attorney.
    So I pulled up some quick statistics, and according to the 
Executive Office at United States Attorneys, in 2012 more than 
11,700 defendants were charged with Federal gun crimes, which 
is a lot more than not doing it and a lot more than 62. And the 
numbers are up at the Department of Justice since 2000 and 2001 
by more than 3,000 prosecutions.
    So we may have a debate about whether more should be done 
and who at the witness table actually wants more to be done in 
the way of gun prosecutions, but I think to pretend that the 
number is in double digits or that the number is zero is 
flagrantly wrong and I think inconsistent with the type of 
testimony that Senators should rely on in a situation like 
this.
    I would also add that there has been repeated testimony, 
also mentioned by Senator Durbin, that criminals will not 
subject themselves to a background check. And my response to 
that is that is exactly the point. Criminals will not subject 
themselves to a background check so they do not go into the gun 
shops; and if they do, they get prevented from buying a gun. So 
instead they go to illegal means. They go primarily to the main 
way we distribute guns without a background check, which is to 
the gun shows.
    And so I think to the extent we can expand the background 
check, the very fact that the criminals will not subject 
themselves to a background check provides the kind of 
prevention that Senator Graham was talking about, to keep the 
guns out of the hands of criminals in the very first case.
    Chief Johnson, tell me a little bit about the men and women 
with whom you serve in law enforcement and the type of training 
and screening that is important both in gun use, in gun safety, 
in situational awareness, before they are put in a position 
where they are expected to defend the public with firearms? Is 
that something you just give somebody a gun and say get in 
there and go defend the community? Or how rigorous and how 
cautious are you about the training required?
    Chief Johnson. The process starts well before we even offer 
you a badge. And it is a very robust, in-depth, psychological 
review of whether or not we are even going to allow you to 
enter the force itself. All departments are universal in this 
issue. It includes psychological, polygraph, and other means to 
determine whether or not you have the fiber to have that 
awesome responsibility to carry a gun. The training is 
exhaustive--weeks and weeks of training on how to use the 
weapon, and tactically how to deal with it, how to care for it, 
and how to safeguard that weapon.
    But it does not stop there. Once you are out in the field, 
a very robust psychological services section, yearly training, 
and other safety equipment that must be carried. This talk 
about teachers having guns----
    Senator Whitehouse. That is actually where I was going to 
go. But before we get to teachers, to your knowledge, does the 
military have similar types of concerns and programs with 
respect to arming men and women who serve in our armed forces?
    Chief Johnson. It is my understanding, talking with my 
associates in the military, that public policing mirrors much 
of what the military does.
    Senator Whitehouse. So against that background, tell me how 
much sense you think it makes to have our line of defense be 
armed teachers.
    Chief Johnson. Certainly when we have this discussion, you 
have to--does a teacher have the inner fiber to carry that 
weapon, the awesome responsibility? You are a teacher in a 
classroom. You are an educator. You dedicated your entire life 
to that pursuit, but you have got a sidearm strapped to 
yourself? And you had better have it all the time, because if 
you put it in your desk drawer, your purse, or your briefcase--
and where you going to leave it?
    Let me tell you something. Carrying this weapon on my side 
has been a pain all these years. I am glad I have it if I need 
it, but let me tell you, it is an awesome responsibility. And 
what do you do in the summertime when you dress down? How are 
you going to safeguard that weapon from a classroom full of 16-
year-old boys that want to touch it? How are you going to do 
that?
    And certainly, the holsters, I am spending $200 apiece just 
for the holsters so you cannot rip it from my side.
    So these are all the factors that in a robust, 
psychological service section we all face catastrophic changes 
in our lives as we go through divorce and other things that 
bring us down. But you need people to step in, like we have in 
policing, that notice those things and deal with them. This is 
a major issue.
    Senator Whitehouse. We have had cases, including a case in 
Rhode Island, in which trained police officers who were off 
duty responded to a situation, and because they had not been 
adequately trained in how to respond off duty and because they 
were out of uniform, it led to tragic blue-on-blue events.
    Presumably that would have some bearing on armed police 
officers responding to an event in which a lot of armed and 
untrained teachers are trying to defend students in a school.
    Chief Johnson. Well, that is a very important point. Two 
years ago in Baltimore City, an on-duty officer in plainclothes 
was shot by uniformed on-duty personnel, and they worked the 
same shift. It is just in the darkness of the night they could 
not tell. And as Captain Kelly has pointed out, that is a major 
issue in the Tucson shooting.
    Senator Whitehouse. And, Ms. Trotter, a quick question. 
Sarah McKinley, in defending her home, used a Remington 870 
Express 12-gauge shotgun that would not be banned under this 
statute, correct? Under the proposed statute?
    Ms. Trotter. I do not remember what type of weapon she 
used.
    Senator Whitehouse. Well, trust me, that is what it was. 
And it would not be banned under the statute. So it does not--I 
think it proves the point that with ordinary firearms, not 100-
magazine, peculiar types of artifacts, people are quite capable 
of defending themselves. In fact, that was your example.
    Ms. Trotter. I respectfully disagree. I understand that you 
are also a graduate of the University of Virginia School of 
Law, and you were close to Monticello where Thomas Jefferson 
penned our Declaration of Independence and close to Montpelier 
where James Madison was instrumental in drafting the Bill of 
Rights. And I think you can understand that, as a woman, I 
think it is very important not to place undue burdens on our 
Second Amendment right to choose to defend ourselves.
    Senator Whitehouse. Oh, I have no objection----
    Ms. Trotter. I do not know what weapon she used----
    Senator Whitehouse [continuing]. To that point. My point is 
that the example you used is one that would not bear in 
argument against the proposal that is before us, because that 
Remington 870 Express is a weapon that would be perfectly 
allowed.
    Ms. Trotter. So would it have been unreasonable for her to 
use a different gun to protect her child?
    Senator Whitehouse. I think that if she was using a 100 
weapon--let me put it another way. She would clearly have an 
adequate ability to protect her family----
    Ms. Trotter. How can you say that?
    Senator Whitehouse [continuing]. Without the need for a 
100-round piece of weaponry.
    Ms. Trotter. How can you say that? You are a large man, and 
you are not a teenage----
    [Laughter.]
    Ms. Trotter. Tall. A tall man. You are not a young mother 
who has a young child with her. And I am passionate about this 
position. Because you cannot understand. You are not a woman 
stuck in her house having to defend her children, not able to 
leave her child, not able to go seek safety, on the phone with 
911. And she cannot get the police there fast enough to protect 
her child.
    Senator Whitehouse. And my point simply----
    Ms. Trotter. And she is not used to being in a firefight.
    Senator Whitehouse. And my point simply is that she did it 
adequately and successfully with lawful firearms and without 
the kind of firepower that was brought to bear so that the 
12th, 13th, 14th shots could be fired by the man who shot Gabby 
Giffords----
    Chairman Leahy. I am going to have to--and I will let you 
go back. There is another round.
    There are a number of things I could say as a gun owner, 
but I will pass up on the opportunity and go to Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. And I would like to 
thank each of the distinguished members of our panel today for 
enduring now over 2 hours of this hearing. As a more junior 
Member of the Committee who sometimes gets to ask questions 
last or second to last, I am especially appreciative of your 
willingness to stay this long.
    I think every one of us, both here in this room and 
everyone watching on television, has been horrified by the 
incidents that occurred in Newtown, in Tucson, and elsewhere. 
And I do not think there is one of us that would not like us to 
find a way as a society to put an end to events like this.
    It would be my preference if we could find a way to put an 
end to events like this, without doing violence to the 
Constitution and also without leaving law-abiding citizens more 
vulnerable to crime.
    There are a number of statistics on this, but one statistic 
I have read has indicated that about 2.5 million times a year 
in America, a gun is used to protect its owner, its possessor, 
from a crime. That is quite significant, and that is a fact 
that we need to take into account.
    There has been a lot of reference today to the fact that 
the protections of the Constitution--the protections of the 
Second Amendment right to bear arms--are not unlimited. And I 
agree that they are not unlimited. There are limits. I think it 
is important for us from time to time to focus on what those 
limits are.
    The Supreme Court in District of Columbia v. Heller held 
that the guns that are within the zone of protection of the 
Second Amendment are those that are typically possessed by law-
abiding citizens for lawful purposes.
    Why don't we start with you, Professor Kopel. Can you tell 
me, is a gun, a semiautomatic weapon, whether a rifle or a 
handgun, that holds more than 10 rounds in its ammunition 
magazine one that could fairly be characterized as one that is 
typically possessed by law-abiding citizens for lawful 
purposes?
    Professor Kopel. In handguns, semiautomatics are 81 percent 
of new handguns sold. A very large percentage of those have as 
standard, not as high capacity but as standard factory 
magazines, magazines between 11 and 19 rounds.
    Another thing that is very common, to get back to Senator 
Whitehouse's issue about the Remington 11-87 shotgun, is 
Senator Feinstein's bill would outlaw that shotgun if it has a 
seven-round magazine on it. It comes with a five-round 
magazine. You can extend it by two or more rounds. And the 
Feinstein bill would outlaw that very standard home defense 
shotgun if it simply has a seven-round magazine.
    So it is all fine to talk about novelty items on the 
fringe, like a 100-round drum, but in practice what is at 
threat of being outlawed that people are actually using is 
their standard-capacity handgun magazines and standard-capacity 
magazines for rifles and shotguns.
    Senator Lee. And what are the law-abiding citizens doing 
with these? In other words, what are the lawful purposes to 
which law-abiding citizens are putting these guns, who own 
them?
    Professor Kopel. Self-defense, target shooting--all the 
purposes which are lawful to possess a firearm. And I would--
regarding what the chief was talking about, about all this 
extra training that police officers have, well, since I have 
represented the two leading police training organizations in 
the U.S. Supreme Court, I would certainly agree that the police 
have more training for all kinds of reasons, including they 
have the power to effectuate arrests, which ordinary citizens 
do not.
    But the training, in the view of the police training 
organizations, the International Law Enforcement Educators and 
Trainers Association, the International Association of Law 
Enforcement Firearms Instructors, they believe that the 
training that is required in most States to obtain a permit to 
carry a handgun for lawful protection of self--only nine States 
currently violate that by not letting trained citizens carry--
that that is appropriate, sufficient for people to be able to 
protect themselves, not necessarily to go out and do arrests 
but to defend themselves. And that includes defending 
themselves in their place of employment, including if that 
place of employment happens to be a school.
    Senator Lee. One of the arguments that I have frequently 
heard for making this type of weapon illegal or making any 
weapon illegal if you are using an ammunition magazine 
containing more than 10 rounds is that weapons like these are 
available on a widespread basis; that it is relatively easy to 
buy them in the sense that, you know, most people may lawfully 
buy them and own them. And that is used as an argument in favor 
of restricting access to these weapons.
    In your opinion, does that make it more or less 
constitutionally permissible to restrict their sale?
    Professor Kopel. Well, I think you have hit exactly what 
District of Columbia v. Heller was all about, which, you know, 
you talk about how often are 100-round drum magazines used in 
crimes. Pretty rarely. How often are they used in self-defense? 
Pretty rarely, too.
    Handguns are used--70 percent of gun homicides in this 
country are perpetrated with handguns. And the Supreme Court 
said the fact that these are very frequently used in crimes 
does not mean that under the Constitution you can prohibit 
them.
    So the fact that you can point to any particular crime 
where a gun was misused and say, oh, that proves we have to ban 
this gun or this accessory, is the opposite of what the Supreme 
Court is saying. The Supreme Court is saying you do not look 
only at the misuse of an arm or an accessory, you look at its 
lawful use. Does it have common, lawful use?
    Yes, handguns have common, lawful use. Yes, handgun 
magazines in the standard size of 11 to 19 rounds have common, 
lawful use. And yes, the AR-15 rifle, the most popular, best-
selling rifle in this country for years, has pervasive lawful 
use.
    Senator Lee. So if we restrict access to these guns, we are 
limiting the ability of individual Americans, law-abiding 
Americans, to use them for lawful purposes?
    Professor Kopel. Yes, and the teaching of Heller is the 
fact that criminals may misuse something does not in itself 
constitute sufficient reason to prohibit law-abiding citizens 
from using a commonly used firearm.
    Senator Lee. Ms. Trotter, do most of the gun-owning women 
that you know have an inclination to abide by the law in 
connection with their gun ownership?
    Ms. Trotter. Yes, definitely.
    Senator Lee. If we were to ban all weapons that contained 
an ammunition magazine capable of accommodating more than 10 
rounds, would most female gun owners that you know abide by 
that law?
    Ms. Trotter. Of course.
    Senator Lee. What about criminals? What about people who 
use weapons like these in connection with crimes? Do you think 
they are as likely to abide by that law?
    Ms. Trotter. By definition, criminals are not abiding by 
the law.
    Senator Lee. Where does that then put women like those that 
you described, women like those that you represent, what kind 
of position does this put them in relative to their current 
position as their ability to defend themselves?
    Ms. Trotter. It disarms the women. It puts them at a severe 
disadvantage, and it not only affects them, but it affects 
anybody that they are responsible for--their children, elderly 
relatives, incapacitated family members.
    Senator Lee. Okay. Mr. Chairman, I see my time has expired. 
I have one question for Mr. Johnson, if I could have--Mr. 
Johnson, according to FBI statistics, about 72 percent of the 
gun homicides that are committed each year in America are 
committed with handguns--4 percent with rifles, 4 percent with 
shotguns, 1 percent with other types of firearms, and then 18 
percent that fit into the category of unknown, but 72 percent 
classified as handguns.
    If 72 percent of the gun homicides are being committed with 
handguns, would that suggest that you would prefer banning 
handguns as well?
    Chief Johnson. Our partnership and, frankly, I have been 
party to no discussion of banning handguns or restricting 
handguns from women or any other group. I do not want to give 
up my handguns. We are here today to talk about a universal 
background check that would help make our Nation safer and 
limit high-capacity magazines that are used in crimes and 
violence across America.
    Senator Lee. Even though far more people die each year from 
handgun-inflicted injuries than from assault rifle-inflicted 
injuries?
    Chief Johnson. We believe the limit on high-capacity 
magazines even for handguns is necessary. No more than 10.
    Senator Lee. Thank you.
    Chairman Leahy. Thank you.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you. I first wanted to just acknowledge all of the 
families out here who have lost loved ones in shootings. And I 
especially wanted to acknowledge Maya Rahamim, who is here from 
Minnesota, who lost her dad, Reuven, in a horrible shooting at 
the company that he built and loved, a small business in which 
he was killed--along with four other employees and a UPS guy 
who just happened to be there--by a coworker who was mentally 
unstable. And this just happened this fall. So thank you.
    I also was listening to all the statistics here, which are 
very important. I am a former prosecutor. I believe in 
evidence. But the statistic that I will never forget is the one 
from Newtown, Connecticut, shared with me by a relative of one 
of the young victims in that tragedy. And that is that little 
Charlotte Bacon loved her Girl Scout troop. And her Girl Scout 
troop once had 10 girls, and now there are only five left. So 
we have to remember what this is about as we look at solutions.
    For me, as a former prosecutor, I have always believed in 
enforcing the laws on the books. And, Mr. LaPierre, I made it a 
major, major focus of our office to prosecute the felon in 
possession of guns. I think that is clearly part of the 
solution. You cannot lessen the importance of that as we go 
forward.
    But there are other things as well, including the 
recommendations that have been made by Vice President Biden and 
that task force. And I think it is very important that we 
explore those in addition to enforcing the laws on the books.
    I have heard from my sheriffs--Republican sheriffs from all 
over my State--that there are major issues with background 
checks. And so I think I would turn to that first, Chief 
Johnson. We had a guy in Minnesota--this just came out in our 
paper, the Minneapolis paper--who had killed his parents as a 
juvenile, got out, somehow got a permit, and was able to obtain 
guns.
    In fact, when they found him, he had 13 guns in his house. 
And he had a note that he had written to the gunman in Newtown. 
And he also said in the note, ``I am so homicide, I think about 
killing all the time.'' And he was somehow able to get a permit 
and get those guns. This just came out in our local paper. And 
I wondered what you see as some of the biggest loopholes--we 
have talked about gun shows, Internet, private sales--and how 
you think that could help.
    And then I want to get to the thing you talked about, about 
how you can get those background checks done quickly, because I 
come from a hunting State. The last thing I want to do is hurt 
my Uncle Dick in his deer stand. And I want to make sure that 
what we do works. And so if you could address that?
    Chief Johnson. There has been great improvement in the 
Nation. Some statistics show nearly an 800-percent increase in 
data entered into the National Instant Criminal Background 
Check System. That is good. But it is not good enough, and we 
are really failing miserably, nationally, entering that data.
    Statistics I have read indicate that nearly 18 States 
across the Nation submit less than 100 records to the NICS 
system on a regular basis. We have to improve that. Maryland 
has to improve that, in fact. We are not doing enough in 
Maryland.
    Senator Klobuchar. And is it true that about 40 percent of 
gun sales take place at the gun shows?
    Chief Johnson. Statistics reveal that 40 percent of gun 
sales take place at gun shows and other non-licensed dealer 
sales arrangements, nearly 6.6 million guns through that 
process a year.
    Senator Klobuchar. And are more and more people now using 
the Internet to buy guns, as we see in other areas?
    Chief Johnson. I sat with my detectives in the gun squad 
for weeks before I had a chance to come--the honor to come here 
today, and they regularly used Internet, PennySaver classified 
ads. They will go outside the State in many cases. A variety of 
methods are used, including straw purchasers.
    Senator Klobuchar. And you talked a little bit earlier 
about how quickly these background checks can get done. You 
compared it to issuing a ticket. If you could answer that.
    Chief Johnson. The analysis that we have conducted, the 
information I have, I believe it is 92 percent of NICS 
background checks come back in less than a minute and half when 
you go to a licensed Federal dealer. And, certainly, that is 
much quicker than I can write a citation. And I think that 
should be universal. That is what we are calling for. That is 
what is going to make our Nation safer.
    Senator Klobuchar. Mr. LaPierre, do you want to respond 
about the timing on the checks?
    Mr. LaPierre. Sure, I will respond, yes, Senator, to a 
couple points.
    One, the chief is talking about using the Internet to do 
interstate sales. That is a Federal crime and should be 
prosecuted. The only way you can do a sale is to go through a 
dealer, and it has to be cleared through a background check.
    The Senator from Rhode Island talked about the prosecution 
data. I get all that from the Syracuse University TRAC data, 
which is who tracks the initial--the prosecution of the Federal 
gun laws where that is the initial charge.
    And why Project Exile worked in Richmond, Virginia, is what 
they started to do is they caught a drug dealer with a gun. 
They put signs up all over the city saying, ``If you have an 
illegal gun in Richmond, under Federal law you are going to be 
prosecuted 100 percent of the time.'' Drug dealers, gangs, and 
felons stopped carrying guns.
    So the 62 statistic, Senator, was for lying on the 
background check, not total prosecutions for the entire 
country.
    Senator Klobuchar. Mr. LaPierre, if you could--and I know 
you want to discuss this with Senator Whitehouse, but I have my 
question about the timing. Do you agree with the chief here 
that we could do this quickly? And all we are trying to do here 
is close some of these loopholes so we expand some of the 
background checks, but that it still could be done in a way 
that will not interfere with law-abiding gun owners.
    Mr. LaPierre. Well, gun shows right now, according to all 
the surveys, are not a source of crime guns, anyway. It is 1.7 
percent. Where criminals are getting guns is the black market, 
they are stealing them. They are not getting them through gun 
shows.
    But if you are talking about expanding a system that is 
already overloaded, where they are not doing any prosecutions, 
basically, even if they catch somebody--they are saying it is 
like Bonnie and Clyde. They catch Clyde, and he goes home and 
says, ``Bonnie, they did not do anything to me, so let us go 
get a gun and commit our crime.''
    I mean, if you are talking about expanding that system to 
every hunter, to every family member, every relative all over 
the United States, when the system already cannot handle what 
it has, you are creating an enormous Federal bureaucracy. It is 
only going to hit law-abiding people, not criminals.
    Honest people are going to be entrapped into committing 
crimes they had no intention to commit. It is an unworkable, 
universal nightmare bureaucracy being imposed under the Federal 
Government.
    I just do not think that law-abiding people want every gun 
sale in the country to be under the thumb of the Federal 
Government.
    Senator Klobuchar. But it is my understanding that when 
people buy guns, they do undergo a background check. We know 
that and we are just simply trying to close some of these 
loopholes.
    Chief, do you want to respond to this?
    Chief Johnson. Well, certainly when a weapon is purchased 
through a licensed Federal dealer, they undergo a background 
check. But as we have said many times here today, 40 percent of 
these guns are being sold outside that process. This is not 
unreasonable. And certainly I do not consider it a restriction. 
If I buy a gun next year, you know, through a private seller, I 
will go to a licensed dealer to do it. This is not 
unreasonable.
    Senator Klobuchar. And, Captain Kelly, I think you really 
said it best at the very beginning of this lengthy hearing when 
you talked about your belief in the Second Amendment and in 
those rights, but with those rights comes responsibility. And 
you talked about the responsibility to make sure that these 
guns do not get into the hands of criminals and terrorists and 
those with mental illness. And do you see this, the background 
check, as a way of helping to get at this problem?
    Captain Kelly. Gabby and I are both responsible gun owners. 
I bought a hunting rifle from Walmart a few months ago, and I 
went through a background check. It did not take very long. 
And, you know, they were able to very clearly determine that, 
you know, I was a responsible person.
    You know, in Tucson and in many of these cases, there are 
people that either would have failed a background check if the 
right data was in the system, like in the case of Jared 
Loughner, and certainly in that case he would have had the 
option to go to a gun show or a private seller, and I imagine 
he would have gotten a weapon. You know, he was a pretty 
marginalized person. I would imagine--and quite mentally ill 
and did not have much of a community around him. I imagine in 
that case, if he would have not been able to get--not pass a 
background check, and--if there was a universal background 
check. I actually do not see him going on the black market to 
get a gun. And maybe if he did, maybe it would have taken him a 
long time to do that, to find the right place to go. And maybe 
in that period of time, just maybe, his parents would have 
gotten him some treatment, got him on medication. And if they 
did, from what his attorney and the prosecutors have told me, 
on medication he would have never done what he did on that day. 
I mean, so you might not be able to prevent every single 
criminal from getting a weapon, but a universal background 
check is a common-sense thing to do. I mean, if we do them for 
Federal licensed dealers, why cannot we just do it at the gun 
show and for a private sale?
    Senator Klobuchar. Thank you very much. And I was thinking, 
as I listened to you, about all the people in this room that 
have thought those maybes too. Maybe if this had been in place, 
maybe if that had been in place. And I think your 
acknowledgment that it is not one solution for every person, 
for every case, that we have to enforce the laws, but we have 
to do better with background checks, and with the number of the 
proposals recommended out there by Vice President Biden's 
commission, that we can do better.
    Thank you.
    Chairman Leahy. Thank you.
    I want to welcome one of our three new Members to the 
Committee, Senator Cruz of Texas. Senator Cruz, you have the 
floor. I apologize that the allergies are causing my voice to 
be so bad.
    Senator Cruz. Well, thank you, Mr. Chairman, and it is a 
pleasure to serve with you and all the Members of this 
Committee.
    I want to begin by thanking each of the distinguished 
witnesses who have come here today. Thank you for taking your 
time. In particular, I want to thank you, Captain Kelly, for 
your service to this country and for your wife's extraordinary 
journey, for her coming here. Congresswoman Giffords has been 
lifted up in prayer by millions of Americans, and her heroic 
recovery is inspirational. And please know that you and your 
family will continue in our prayers in the years to come.
    My wife and I have two little girls. They are 4 and 2. I 
think no parent, and in particular no parent of young children, 
could watch what happened in Newtown without being utterly 
horrified--utterly horrified at the depravity of a deranged 
criminal who would senselessly murder 20 young children at an 
elementary school.
    Unfortunately, in Washington, emotion I think often leads 
to bad policies. When a tragedy occurs, often this body rushes 
to act. And at times it seems the considerations of this body 
operate in a fact-free zone. I will suggest a philosophy that I 
think should guide this body in assessing gun violence, and 
then I would like to highlight and ask a few questions on a 
couple of points that I think are particularly salient to 
addressing this issue.
    The philosophy I would suggest makes sense is that we 
should be vigorous and unrelenting in working to prevent, to 
deter, and to punish violent criminals. I have spent a 
substantial portion of my professional life working in law 
enforcement, and the tragedies that are inflicted on innocent 
Americans every day by criminals are heartbreaking, and we need 
to do more to prevent them.
    At the same time, I think we should remain vigilant in 
protecting the constitutional rights of law-abiding citizens. 
And I think far too often the approaches that have been 
suggested by this Congress to the issue of gun violence 
restrict the liberties of law-abiding citizens rather than 
targeting the violent criminals that we should be targeting.
    And I would point out that I hope some of the passion we 
have seen from Members of this Committee with respect to the 
need to prevent violent crime will be reflected equally should 
we find ourselves in a judicial confirmation hearing with a 
judicial nominee who has a record of abusing the exclusionary 
rule to exclude evidence that results in a violent criminal 
walking free and being able to commit yet another crime. I hope 
we see exactly the same passion devoted to assessing whether 
judicial nominees will enforce our criminal laws and not 
frustrate the administration of justice.
    Three points I think are particularly salient. The first 
is, in my judgment, the proposed assault weapons ban is a 
singularly ineffective piece of legislation.
    I was having a conversation recently with a loved one in my 
family who asked a very reasonable question. She said, ``Why do 
regular people need machine guns?'' And, you know, one of the 
things that happens in this debate is the phrase ``assault 
weapons ban'' gets a lot of people really concerned, and they 
assume, much like the phrase ``military-style weapons,'' that 
we are talking about ordinary citizens running around with M-
16s and Uzis that are fully automatic.
    Fully automatic machine guns are already functionally 
illegal. Ordinary citizens cannot own them absent very, very 
heavy regulation. This entire discussion does not concern 
machine guns, and yet I would venture to say a large percentage 
of Americans do not understand that.
    I want to begin by talking about the assault weapons ban as 
it was enforced before, and I would ask for slide number 1.
    The assault weapons ban that used to be in effect, 
according to the Department of Justice, ``failed to reduce the 
average number of victims per gun murder incident or multiple 
gunshot wound victims.''
    Now, that is the assessment of the United States Department 
of Justice, and that is in 1994. That was the Janet Reno 
Department of Justice under President Clinton that said the 
assault weapons ban was singularly ineffective.
    If we could move to the second slide?
    The Department of Justice likewise concluded that the 
assault weapons ban, ``under it there has been no discernible 
reduction in the lethality and injuriousness of gun violence.''
    So the reaction to this tragedy in Newtown is for a lot of 
elected officials in Washington to rush to re-enact a law that, 
according to the Department of Justice, did absolutely nothing 
to reduce gun violence.
    Now, why is that? That is not accidental. Because the 
assault weapons ban, if it does not ban machine guns, what does 
it ban? And what it bans, I would suggest to you, are scary-
looking guns.
    If we could move to slide 3.
    This is a photograph of a Remington 750. It is one of the 
most popular hunting rifles in America. This rifle would be 
entirely legal under this so-called assault weapons ban.
    Now, I have a question for you, Mr. LaPierre. Functionally, 
in terms of the operation of this firearm--this is a 
semiautomatic firearm. You pull the trigger once, one bullet 
comes out. Is the operational firing mechanism in this firearm 
materially different from the so-called assault weapons ban 
that this bill is targeted at?
    Mr. LaPierre. No, it is not.
    Senator Cruz. Now, what the assault weapons ban instead 
targets are cosmetic features. So, for example, I am holding in 
my hand a pistol grip. Under this proposed legislation, if this 
piece of plastic, this pistol grip, were attached to this 
rifle, it would suddenly become a banned assault weapon.
    Now, I would ask you, Mr. LaPierre, are you aware of any 
evidence to suggest that attaching a piece of plastic to this 
rifle would make it in any way whatsoever even slightly more 
dangerous?
    Mr. LaPierre. No, the problem with the bill that Senator 
Feinstein introduced is it is based on falsehoods directed at 
people who do not understand firearms, to convince them that 
the performance characteristics of guns they are trying to ban 
through that bill are different than the performance 
characteristics they are not trying to ban. ``They make bigger 
holes.'' ``They are rapid-fire.'' ``They spray bullets.'' 
``They are more powerful.'' ``They penetrate heavy armor.''
    All of that is simply not true. I mean, the AR-15 uses a 
.223, and then I hear in the media that no deer hunter would 
use something that powerful. I mean, .243s, .270s, 25.06, 
30.06, .308s--dozens of other calibers used in hunting are more 
powerful.
    Senator Cruz. So let me make sure I understand that right. 
This deer rifle, which is entirely legal and is used by 
millions of Americans, is sold in the identical caliber as the 
so-called assault weapons ban, although those look scarier 
because they have a piece of plastic attached to them.
    Mr. LaPierre. And the Ruger Mini-14, which Senator 
Feinstein exempts in her bill, uses .223. The AR-15, which has 
the handle on the bottom, which she prohibits, uses the same.
    Senator Cruz. I am out of time. I want to make one final 
point, if I may, which is there has been much attention drawn 
to gun shows, and indeed the statistic of 40 percent has been 
bandied about. Now, that statistic is unfortunately based on a 
study that occurred before the background check went into 
effect, and so it is a highly dubious figure.
    But I do want to point to what the Department of Justice 
has said, which is in slide 5. The Department of Justice has 
said that firearms used in crimes, 1.9 percent of those 
firearms come from gun shows. So, again, in response to this 
crime, this body does not act to enact anti-crime legislation 
to prevent violent crimes. Instead it targets 1.9 percent of 
the guns, and a substantial portion of those guns were sold by 
licensed firearms dealers who already conducted a background 
check. So even that 1.9 percent, a substantial portion are 
already subject to a background check.
    I would ask, Mr. Chairman, if we have a second round, I 
would like to additionally get into the effectiveness, or lack 
thereof, of gun controls.
    Chairman Leahy. I am going to leave the record open for 
questions. I think, because of the Senate's schedule this 
afternoon, we probably will not have a second round. But I will 
leave the record open so the Senator can submit additional 
questions. I have further questions as well, so I will not have 
time to speak either and will submit my questions.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Thank you to all 
the witnesses, especially you, Captain Kelly, and thanks to 
your beautiful wife--and I mean beautiful in every way.
    My wife, Frannie, and I were heartbroken for the families 
in Sandy Hook. We were heartbroken for the families in Tucson. 
For those of you who are listening or watching this hearing in 
Newtown, I want you to know that Minnesotans have you in our 
thoughts and our prayers and that we have shared in your grief. 
We shared it when we lost lives at a sign factory--Maya is 
here. She lost her father. This was in Minneapolis in 
September.
    We share it every time we hear gunshots and ambulance 
sirens interrupting an otherwise quiet school night. We share 
it every time we bury one of our sons or daughters.
    I know that a group of students from Red Lake Reservation 
in Minnesota, students who lost their classmates to gun 
violence, made the 1,500-mile drive to Newtown a few days 
before Christmas just to let the people in Newtown know that 
they are not alone, we are all in this together.
    Over the past month or so, I have been talking to my 
constituents about their ideas on how to make our communities 
safer. I travel the State to meet with hunters and school 
officials, with law enforcement officers, with mental health 
experts. I have convened roundtable discussions, and I have had 
many, many conversations. And what I have learned is that there 
is a balance to be struck here. We can honor the Second 
Amendment, and we can honor Minnesota's culture of responsible 
gun ownership while taking basic measures that will make our 
kids and our communities safer.
    So I have cosponsored a bill to limit the number of rounds 
in a magazine. I have cosponsored a bill to require background 
checks at gun shows. I have cosponsored Senator Feinstein's 
bill to ban assault weapons. I am reviewing legislation to 
address gun trafficking. I have supported funding for law 
enforcement programs, and I work every day to carry out the 
work Paul Wellstone--his unfinished work to improve our 
Nation's mental health system.
    Tomorrow I will introduce the Mental Health in Schools Act 
which will improve access to mental health care for kids 
because catching these issues at an early age is really 
important. And I want to be careful here that we do not 
stigmatize mental illness.
    The vast majority of people with mental illness are no more 
violent than the rest of the population. In fact, they are more 
likely to be the victims of violence. But these recent events 
have caused us as a Nation to scrutinize our failed mental 
health and system, and I am glad we are talking about this 
issue in a serious way.
    Police Chief Johnson, I met with some mothers from the 
Mountain View School District in Minnesota whose children's 
lives and their own lives were changed for the better because 
their kids got access to mental health care that they needed at 
an early age. And they got treatment, and their lives were 
improved, and their moms' lives were improved.
    As a community leader and a law enforcement official, do 
you think it will benefit our communities if we are able to use 
schools to improve access to mental health care?
    Chief Johnson. I applaud your initiatives and your work, 
Senator, and the answer is absolutely. As a father with a child 
that has mental health issues, I think this is absolutely 
essential. And my child has access to medical care that she 
needs, but the record shows and reflects that nearly half of 
children and adults in this Nation who are diagnosed with 
mental health issues do not have access to the care they need, 
and it gets even worse after the age of 18. And we are seeing 
this in crimes of violence, and we are seeing this in crimes 
all across our Nation and in my jurisdiction. It is a major 
problem. And I do recognize that most people with mental health 
issues do not go on to commit violent crimes. However, we have 
seen over and over again it seems to be a common thread or 
theme or issue that we must deal with.
    Senator Franken. Again, Police Chief Johnson, I have heard 
from some gun owners who are worried that Congress is going to 
outlaw features that they really like in guns, things like 
pistol grips and barrel shrouds and threaded barrels. Some say 
that these features are merely cosmetic, but it seems to me 
that a lot of these features are not just cosmetic, they are 
functional.
    Can you explain why a pistol grip in the right place makes 
a functional difference, why it is not just a piece of plastic, 
why collapsible stocks present a danger, why bullet buttons and 
some of the other features are dangerous? I think this is a 
crucial point.
    Chief Johnson. I agree completely. It is not just about the 
capacity of the weapon to handle numerous rounds, which 
obviously is absolutely critical in this discussion. And, 
again, we believe no more than 10.
    We use that weapon in policing because of its tactical 
capability, its ability to cool down and handle round after 
round after round; its ability--it is rugged, it is ruggedized, 
it is meant for a combat or environment that one would be 
placed in facing adversaries, human beings, people. That weapon 
can be retrofitted with other devices to enhance your offensive 
capability.
    The weapon itself has features to adjust it, optics sights, 
for example, that can cost hundreds of dollars--and I have shot 
this weapon many times--that would enhance your capability in 
various tactical maneuvers, whether it is from the shoulder or 
the hip, whether you choose to spray fire that weapon or 
individually shoot from the shoulder. The optic sights are 
amazing, the technology advances that weapon has.
    That weapon is the weapon of our time. It is the place that 
we find ourselves in today. And, certainly, I believe it is 
meant for the battlefield and a public safety environment only.
    Senator Franken. Thank you.
    Mr. Chairman, before I yield my time, I just would like to 
submit the testimony of Miya Rahamim, who is here today. She 
lost her father in a shooting in September in Minneapolis. And 
I would just like unanimous consent to submit her testimony for 
the record.
    Chairman Leahy. It will be. As Senator Grassley and I both 
indicated earlier, there will be other statements for the 
record, as the record will be kept open for questions.
    [The prepared statement of Miya Rahamim appears as a 
submission for the record.]
    Chairman Leahy. As I also indicated earlier, Senator Hatch, 
a very senior Member of this Committee, had to be at two 
different committees. And I yield now to his time, and then we 
will go to the next Republican. After we go back, it will be, 
of course, Senator Flake.
    Senator Hatch.
    Senator Hatch. Well, thank you so much, Mr. Chairman, and I 
thank all of you for being here today.
    Captain Kelly, I appreciate you and your wife and your 
testimony and your feelings very much. And I appreciated much 
of your testimony, and I am grateful that you would take the 
time to be with us, and it was wonderful to see your wife 
again.
    Let me go to you, Mr. LaPierre. President Obama has issued 
23 Executive actions on gun violence. Can you please discuss 
the commonalities between your organization, the NRA, and the 
Obama administration when it comes to finding ways to reduce 
gun violence?
    Mr. LaPierre. Well, I mean, what we think works--and we 
support what works--is what NRA has done historically. I have 
talked about our Eddie Eagle child safety program, which we put 
more money into than anybody in the country, that has cut 
accidents to the lowest level ever.
    We support enforcing the Federal gun laws on the books 100 
percent of the time against drug dealers with guns, gangs with 
guns, felons with guns. That works.
    We have supported prison building. You have States like 
California where they--I think more than any other State in the 
country they send more inmates back to the street and have to 
put more back in jail for new crimes committed against their 
citizens than any other State in the Nation. New York State is, 
too. I mean, the collapse of the fiscal situation in those 
States has also collapsed the criminal justice system in those 
States.
    I mean, NRA has always supported what works. We have 11,000 
police instructors, and we represent honest people all over 
this country.
    There are 25,000 violent crimes a week in this country. The 
innocent are being preyed upon. The statistics are numbing. 
Those 911 calls are horrible.
    But at the scene of the crime, it is the criminal and the 
victim, and victims all over the country want to be able to 
protect themselves.
    I mean, you know, this whole debate almost puts it into two 
different categories. If you are in the elite, you get 
bodyguards, you get--right here you get high-cap mags with 
semiautomatics protecting this whole Capitol. The titans of 
industry get the bodyguards whenever they want. Criminals do 
not obey the law anyway; they get what they want. And in the 
middle is the hard-working, law-abiding, taxpaying American 
that we are going to make the least capable of defending 
themselves.
    We are going to say, you can have a bolt action rifle, but, 
boy, you cannot have an AR-15. Or you can have a six-shot 
revolver, but you cannot have a semiautomatic handgun. You can 
have four or five or six rounds in your magazine, but if three 
intruders are breaking down your door, you cannot have 15 
rounds because somebody thinks that is reasonable in their 
opinion. I mean, it----
    Senator Hatch. I understand.
    Mr. LaPierre. People want to be able to protect themselves. 
That is why people support the Second Amendment, and that is 
why these bills are so troubling. They do not hit the elites. 
They do not hit the criminal. They hit the average, hard-
working, taxpaying American that gets stuck with all the laws 
and regulations.
    Senator Hatch. I understand that one of the bills will ban 
well over 2,000 guns. I mean, talking about individual guns.
    Mr. LaPierre. Senator Feinstein's bill bans all kinds of 
guns that are used for target shooting, hunting, personal 
protection. And yet, on the other hand, she exempts guns that 
have the exact same performance characteristics as the guns she 
does not ban. Gun owners know the truth. That is why gun owners 
in this country, the 100 million gun owners, get upset about 
this stuff. They may be the victim of these lies, about taking 
the military term ``assault'' and applying it to civilian 
firearms. But they know the truth inherently, and they shake 
their heads, and they go, ``None of this makes any sense.''
    Senator Hatch. Well, I appreciate that.
    Ms. Trotter, let me just ask you this: In your testimony 
you state that all women in jurisdictions that have concealed-
carry laws reap the benefits of increased safety, even if they 
choose not to carry a weapon themselves. Can you please explain 
why?
    Ms. Trotter. Yes. Mr. LaPierre mentioned that gun owners 
are very concerned about all these burdens that could be 
possibly put on law-abiding citizens. And I will tell you that 
non-gun owners are concerned about this, too, because you do 
not have to choose to carry to be the beneficiary of laws that 
allow people to carry. And for women, you reap the benefit of 
fewer murders, fewer rapes, fewer possibilities of being a 
victim of violence if the State that you live in does not ban 
anybody, particularly women, from carrying weapons.
    So it is a matter of choice. We are not saying that all 
women should or need to carry weapons. But we need to protect 
the Second Amendment right to choose to defend yourself.
    Senator Hatch. Well, thank you.
    Mr. Kopel, Professor, you wrote an article that appeared in 
the Wall Street Journal on December 18, 2012. In the article, 
you point out that firearms are the most heavily regulated 
consumer product in the United States. Gun control laws are 
more prevalent now than in the mid-1960s when you could walk 
into any store and buy a semiautomatic weapon with no questions 
asked.
    Now, in your opinion, the lack of firearms regulations is 
not a contributing factor to the recent rise in the random mass 
shootings. So what factors have contributed to the rise in 
these random shootings? You may have answered this already, but 
I would like to hear it again if you have not.
    Professor Kopel. No, I have not.
    Senator Hatch. Okay.
    Professor Kopel. For one thing there is a copycat effect.
    Senator Hatch. Could you put your mic on?
    Professor Kopel. Certainly. There is a copycat effect, and 
lots of studies of scholars of these--of all kinds of 
criminals, but especially of these people seeking notoriety, 
show strong a copycat effect. And that is something that makes 
me think we need immediate protection for schools because of 
the copycat danger right now.
    In addition, there was a mass deinstitutionalization of the 
mentally ill starting in the 1960s and going through the 1980s. 
Some of that was because of budgetary issues, and a lot of the 
times the promise was, well, we will put these people in 
halfway houses so they can be partially in the community, which 
is a great idea. But then there was never the funding for the 
halfway houses, and if people walk away, nothing is done to 
followup. Jared Loughner, Adam Lanza, James Holmes--so many of 
these perpetrators absolutely would have been civilly committed 
under the system we had 50 years ago.
    We need to move back toward greater possibility for civil 
commitment for the dangerously, violently mentally ill. It is 
certainly right, as I think both Senators from Minnesota were 
saying, that mentally ill people per se are not any more 
dangerous or violent than anyone else. In fact, sometimes less 
so.
    But there is a subset of them that are dangerously, 
violently mentally ill, and we need to have them off the 
streets before they--so that they cannot endanger themselves or 
others.
    Senator Hatch. Well, thank you so much.
    Mr. Chairman, I would like to have a statement put into the 
record following yours and Senator----
    Chairman Leahy. Without objection.
    Senator Hatch. Thank you so much.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    Senator Hatch. I want to thank all of you for being here. I 
think it has been an enlightened hearing.
    And this is not a simple thing, and I have got to say there 
are some freedoms among the mentally ill that have to be 
considered, too. And this is complex. It is not--not easy.
    But I can say this, that I think this has been a 
particularly good panel, and I just appreciate all of you for 
testifying.
    Chairman Leahy. I thank you for that, Senator Hatch, and I 
will yield now to Senator Coons.
    Senator Coons. Thank you, Chairman Leahy, and thank you for 
convening this important hearing.
    To the panel, thank you for your testimony. And to Captain 
Kelly and to your wonderful wife, Congresswoman Giffords, thank 
you for everything you are doing to bring, I think, an 
important message.
    We as a Committee are wrestling here today and we as a 
country are wrestling with how to respond appropriately and 
effectively to a whole string of horrific shootings. Whether in 
Newtown or in Tucson, whether in a Sikh temple or at a state 
university like Virginia Tech, there are just too many of these 
incidents piled year upon year.
    And I am grateful for all my colleagues who have engaged in 
this thorough discussion today about how do we balance things.
    One of the most important things, I think, is for us to get 
our facts right. A number of my colleagues have made a great 
deal of the number of cases of Federal gun prosecutions going 
down.
    But my staff has pulled the most recent report from the 
Executive Office of the United States Attorneys, and it turns 
out that the number of defendants charged with Federal gun 
violations is actually steady. In fact, in 2011, it was 46 
percent higher than in 2000. So I just encourage all who are 
paying attention to scoring at home the numbers, what matters 
is the number of defendants actually prosecuted with Federal 
gun violations.
    I have got lots of things I would like to touch on, and I 
did want to say at the outset I am grateful that our Vice 
President, Joe Biden, has led, I think, a very broad and 
searching conversation where he has listened, as I have, to 
folks across the country and, in my case, across my State of 
Delaware. And I have heard from parents whose children suffer 
from mental illness and who are really struggling to provide 
the care that they deserve and need--law enforcement officials, 
educators, community leaders, gun owners, sportsmen, people who 
are really concerned about how we strike the right balance and 
how we make our country safer.
    If I could, to Captain Kelly, first, thank you for leading 
Americans for Responsible Solutions. One of the main ideas you 
and your wife have advanced is expanded background checks. 
Could you just explain for me again how it is today that 
convicted felons are able to get their hands on weapons despite 
our current background check laws and how we might fix that?
    Captain Kelly. Well, currently, certainly Senator Cruz 
mentioned earlier the statistic of--I think he said 1.9 percent 
of criminals that committed a crime with a gun----
    Senator Coons. Of prisoners.
    Captain Kelly. Of prisoners. Well, I want to just look at 
that for a second.
    There is also a statistic that says 80 percent--on a survey 
done of criminals, 80 percent of criminals got their guns from 
a private sale or a transfer.
    So by closing that part of the existing loophole, which is 
the fact that with a private sale or transfer, there is no 
requirement to get a background check, you could effectively 
reduce the number of guns in the hands of criminals.
    And we know from what happened in Tucson that if there was 
an effective background check, which includes having the mental 
health data and the person's drug use, in the case of the 
Tucson shooter, into the system, and if, in fact, there was no 
gun show loophole, I would contend that he would have had a 
very difficult time getting a gun.
    So the first thing that needs to be done is we certainly 
need to have a universal background check. If background checks 
are good enough for somebody who is a Federal firearms licensed 
dealer, like Walmart, for instance, where I just purchased a 
gun a couple months ago, a hunting rifle, and I had to go 
through a background check, why is not that good for other 
sales, sales from a private individual or sales from somebody 
who is really kind of in business at a gun show?
    Senator Coons. Captain Kelly, if you would, as a gun owner 
yourself, how do you feel that thorough universal background 
checks of the types that you describe, either for purchase of 
weapons or large capacity magazines, how would that affect or 
infringe your Second Amendment rights?
    Captain Kelly. I do not think it would infringe my Second 
Amendment rights at all. You know, I am--I think I am as strong 
a supporter of the Second Amendment as anybody on this panel. 
You know, I have flown 38 combat missions over Iraq and Kuwait 
defending what I believe is our--defending our Constitution.
    You know, I have flown in combat. I have been shot at 
dozens of times. You know, I find it interesting that often we 
talk about putting a security guard in the school. That has 
been brought up a lot. And I actually think, you know, that is 
better than no security guard in the school. But from my 
experience of being shot at and what that actually feels like 
and how chaotic it is, and with the exception of Chief Johnson, 
I would suspect that not many members of this panel--or even in 
this room, for that matter--have been in any kind of a fire 
fight. It is chaos.
    I think there are really some very effective things we can 
do, and one is, Senator, the background check. Let us make it 
difficult for the criminals, the terrorists, and the mentally 
ill to get a gun.
    Senator Coons. I agree with you, and I have agreed to 
cosponsor legislation to this affect.
    But let me ask Mr. LaPierre. I, just at the outset, want to 
say I am grateful for the work the NRA in providing training in 
safe gun ownership to millions of Americans. And I hope you 
will take into account the data I have offered on gun 
prosecutions.
    But I do disagree with a point you made your testimony. You 
said--and I think I quote--that background checks will never be 
universal because criminals will never submit to them. And 
while that may be true, I think the point that Captain Kelly 
makes is telling. And if we in combination put in place tougher 
restrictions on straw purchases and tougher enforcement on 
those who buy guns legally but then sell them to those who 
should not have them, and we put in place universal background 
checks and impose some responsibility on responsible gun owners 
to report lost or stolen weapons in combination, would not all 
of these things effectively move us toward a country where the 
number of those who should not have weapons cannot get access 
to them?
    Mr. LaPierre. Senator, what I think you are going to end up 
with is a huge massive bureaucracy with honestly a huge waste 
of police resources and money that could go into doing things 
in the police criminal justice area that would actually save 
lives.
    That study that you were talking about actually says where 
criminals get their guns--39.5 percent from friends and family, 
37 percent from street or black market, 11 percent from 
licensed dealers, 10 percent by theft, 1.7 percent at gun 
shows.
    Senator Coons. Right.
    Mr. LaPierre. I just think that if you try to do this 
universal background check, it ends up being a universal 
Federal nightmare imposed upon law-abiding people all over this 
country. Criminals will ignore it. The Federal Government will 
not prosecute those who fail it. Senator, the Vice President at 
the meeting we attended said they did not have time to 
prosecute those types of cases. So what is the point of the 
whole thing? If you let the criminal and the mentally ill----
    Senator Coons. Well, Mr. LaPierre, I am almost out of time. 
Forgive me for the brief cycle.
    Mr. LaPierre. Sure.
    Senator Coons. Just to take at face value the data you just 
suggested, it is not just closing the gun show loophole. It is 
also thoroughly enforcing those who transfer weapons bought 
legally to those who should not have them. And an awful lot of 
the folks you cited are getting their hands on weapons 
inappropriately through so-called straw purchases or through 
illegal transfers.
    I just want to ask a question of Chief Johnson, if I might, 
because I see, Mr. Chairman, my time is almost up.
    I think it is valuable to have the input of law enforcement 
professionals. In your view, would this sort of a universal 
background check combined with aggressive enforcement of the 
transfers to those who should not have them be a huge 
bureaucratic mess and a waste of police resources? Or might it 
make a difference on the street for those of you who put your 
lives on the line for us every day?
    Chief Johnson. I have to respectfully disagree with Wayne 
on this issue. Public safety, police, we are ready, we are 
unified on this issue that a universal background check will 
make our society a safer place, will make my police officers 
safer. It is absolutely essential.
    Senator Coons. Well, thank you, Chief. Thank you to the 
panel. I will submit some more questions for the record. I see 
I am out of time.
    Thank you.
    Chairman Leahy. Thank you.
    And, again, another new Member of this Committee, Senator 
Flake of Arizona. I appreciate your being here and your 
patience in waiting. If it is any consolation, I had that seat 
years ago.
    [Laughter.]
    Senator Flake. That is good to know. Thank you, Chairman, 
for convening this. And thank you to the panel for being here, 
offering such excellent testimony, and for staying so long. I 
will try not to take my full 7 minutes. But I especially want 
to thank Mark for being here. And I know that Gabby is watching 
the proceedings in a room in the back. I just visited here a 
while ago. And I just want you to know, Mark, and I want Gabby 
to know how much we miss her here.
    I was on a call this morning with a few dozen ranchers, 
border ranchers in Arizona, and was reminded that this is a 
practice that she began years ago, to talk about immigration 
issues and to keep them up to speed and to seek their input. 
And I have continued that practice. And I can tell you, she 
offered wonderful representation to the people of southern 
Arizona and she is missed. And I am so grateful to you and to 
her for the public service that you have offered in the last 
year under difficult circumstances and for taking up this new 
cause. So thank you.
    With regard to the Tucson shooting, you mentioned that 
Jared Loughner had had drug use in the past that might have 
triggered some kind of entry into a system that he may have 
been checked, but also the mental health aspect. And that seems 
to be the difficult problem to solve here, listening to the 
testimony, is the nexus between mental illness and some kind of 
entry into a background system.
    In Maryland, I believe it is, there have only been like 56 
mental health records provided to the NICS system. Arizona has 
120,000 entries, but not interfaced with the system here.
    What are the major problems there? And I will take anybody 
who can comment on this. Perhaps, Chief Johnson, you know, or, 
Mark, if you have any ideas? Is it solely privacy issues? Many 
of those have a Federal nexus, and that is something that we 
can deal with here. So I am interested in why it is that it is 
so difficult to have some of the mental health records entered 
into the system.
    Chief, first, do you want to take this?
    Chief Johnson. Well, Governor O'Malley in the State of 
Maryland last week introduced his plans to increase 
significantly data into the National Instant Criminal 
Background Check System. Senator, you are right. Maryland could 
do much better in this area, no question about it.
    Senator Flake. Is this an issue with Maryland or any other 
state? And I am not trying to pick on Maryland at all. I assume 
it is similar with every state out there. I just had the 
figures for Maryland. But is that an issue of just resources? 
Or are there privacy concerns that prevent them from offering 
this information?
    Chief Johnson. I think there is confusion. Data that I have 
seen indicates some 18 States submit less than 100 records to 
the system. I think there is confusion amongst the medical 
community, and even fear. How does HIPAA affect the release of 
this information and this data system? And I do believe, as the 
President's plan has called for, an incentive to incentivize 
States to participate would drastically help this problem.
    Senator Flake. Mark, do you want to comment on that?
    Captain Kelly. Yes, Senator. Thank you for your kind words. 
Gabby misses being here as well.
    Of those 121,800 records that Arizona has not submitted to 
the background check system, I do not know why. I imagine it 
could be something--it might be a matter of resources. You 
know, maybe the funding is not there to have the manpower to do 
that. Possibly, maybe there is not the will. Maybe for some 
reason in the State of Arizona, maybe they do not have a desire 
to share that information.
    I do not know, but I can guarantee you after this hearing I 
am going to try to find out.
    Senator Flake. All right.
    Captain Kelly. I will get back to you.
    Senator Flake. And so will I. I think that that is an area, 
from the testimony today and what we know of this situation, 
where we can have, I think, a real impact here. And so I thank 
you all for your testimony, especially Mark and Gabby for being 
here.
    Captain Kelly. Thank you.
    Senator Flake. Thank you.
    Chairman Leahy. Thank you, Senator Flake.
    Senator Blumenthal, I will recognize you next. And I would 
just note, as everybody probably well assumes, you and I have 
had a number of discussions since the tragedy in Connecticut, 
including one phone call I recall when you were just about to 
meet with some of the families. And I have relied a great deal 
on both your expertise, your law enforcement background, but 
also the fact that you are from Connecticut.
    Senator Blumenthal.
    Senator Blumenthal. Thank you. Thank you, Mr. Chairman. I 
want to express my appreciation to you for your sensitivity and 
your condolences, and so many of my colleagues for theirs as 
well and the expressions that we have had this morning, and 
also, obviously, for convening this hearing, which is a 
beginning--hardly an end--just a first step in what I hope will 
be a call to action that Newtown has begun and action that is 
really bipartisan.
    Whatever the impressions that may be left by this morning's 
proceedings, I think there is a real potential for bipartisan 
common ground on this issue, because we certainly have more in 
common than we have in conflict on this issue.
    And I speak as a former prosecutor, having served as 
Attorney General in the State of Connecticut for 20 years, but 
also as a United States Attorney, a Federal prosecutor, for 
4\1/2\ years. And I want to thank all of the members of the 
panel for your patience and your staying power today. It has 
been a very informative and worthwhile hearing.
    But I want to say a particular thanks, as others have, to 
Captain Kelly and to Gabby Giffords for your courage and 
strength in being here today, and to all of the victims and 
their families: Steve Barton, who is here from Connecticut, who 
was a victim in Aurora. Many of the Sandy Hook families who are 
not here today I know are here in spirit. Mark and Jackie 
Barden, who lost their wonderful son, Daniel, at Sandy Hook, 
wrote a profoundly moving and inspiring piece in today's 
Washington Post.
    And, Mr. Chairman, if there is no objection, I would like 
to submit it for the record. It is entitled ``Make the Debate 
Over Guns Worthy of Our Son.''
    Chairman Leahy. Without objection.
    [The article appears as a submission for the record.]
    Senator Blumenthal. To Chief Johnson, you are here not only 
in a personal capacity but, in my view, as representing and 
reflecting the courage and heroism of the tens of thousands of 
law enforcement community, police and firefighters and first 
responders across the country, who every day brave the threat 
of gunfire and are often outmanned or outgunned by criminals. 
And I want to thank you for your service to our Nation, as I do 
Captain Kelly for his in our military.
    And just to say, you know, I was in Sandy Hook within hours 
of the shooting at the fire house where parents went to find 
out whether their children were alive. And I will never forget 
the sights and sounds of that day when the grief and pain was 
expressed in the voices and faces of those parents.
    As much evil as there was on that day in Newtown, there was 
also tremendous heroism and goodness: the heroism and goodness 
of the educators who perished literally trying to save those 
children by putting themselves between the bullets and their 
children; and the heroism of those first responders and police 
who ran into that building to stop the shooter, not knowing 
that he was dead when they did; and their being there, in fact, 
stopped the tragedy.
    I want to thank also the community of Sandy Hook. I have 
spent countless hours there, the better part of 3 weeks after 
the shooting and, most recently this past weekend, the 
dedication of a memorial and then time with one of the 
families. And their strength and courage I think has been an 
inspiration to the country and very, very important to 
advancing an agenda of making our Nation safer.
    And one way they have done it--one way, not the exclusive 
or only way--has been through a pledge called the ``Sandy Hook 
Promise.'' This promise I would like to read. We have it on a 
chart here.
    It is, ``I promise to honor the 26 lives lost at Sandy Hook 
Elementary School. I promise to do everything I can to 
encourage and support common-sense solutions that make my 
community and our country safer from similar acts of violence. 
I promise that this time there will be change.''
    I am proud to say Steve Barton has made the Sandy Hook 
Promise. Gabby Giffords and Mark Kelly have made the Sandy Hook 
Promise. Tens of thousands of Americans in Connecticut and 
across the country have made that promise, as have I.
    So I want to ask Mr. LaPierre, will you make the Sandy Hook 
Promise?
    Mr. LaPierre. Senator, our Sandy Hook promise is always to 
make this country safer, which is why we have advocated 
immediately putting armed security in schools, fixing the 
mental health system, computerizing the records of those 
mentally adjudicated. I would hope we could convince some of 
these companies--I know they have a First Amendment right to do 
it--to stop putting out such incredibly violent video games 
that desensitize children to violence. And, finally, we need to 
enforce the reasonable gun laws on the books, which we do not 
currently do. That will make----
    Senator Blumenthal. Can I take that as a yes?
    Mr. LaPierre [continuing]. The country safer.
    Senator Blumenthal. Can I take that as a yes?
    Mr. LaPierre. Yes. That is a yes.
    Senator Blumenthal. Thank you.
    Mr. LaPierre. We have 11,000 police----
    Senator Blumenthal. And can I invite and urge you to 
advocate that your members, responsible gun owners--and I thank 
them for being responsible gun owners--also join in the Sandy 
Hook Promise?
    Mr. LaPierre. Senator, there is not a law-abiding firearms 
owner across this United States that was not torn to pieces by 
what happened in Sandy Hook. They just do not believe that 
their constitutional right to own a firearm and the fact that 
they can protect their family with a firearm caused the 
problem.
    Senator Blumenthal. Let me ask you this, Mr. LaPierre. You 
and I agree there ought to be more prosecutions of illegal gun 
possession and illegal gun ownership.
    Mr. LaPierre. You know, the problem, Senator is I have been 
up here on this Hill for 20-some years agreeing to that, and 
nobody does it. And that is the problem. Every time we say we 
are going to do it. I will make you this bet right now. When 
President Obama leaves office 4 years from now, his 
prosecutions will not be much different than they are now. If 
each U.S. Attorney did ten a month, they would have 12,000. If 
they did 20 a month, they would have 24,000. Let us see if we 
get there.
    Senator Blumenthal. Chief Johnson, you have testified very 
persuasively on the need for better background checks. Do you 
believe those background checks ought to be applied to 
ammunition purchases as well as firearms purchases?
    Chief Johnson. Our organization supports background checks 
on ammunition sales.
    Senator Blumenthal. Thank you.
    And, Captain Kelly, I am just about out of time, but I 
would like to ask you, if you may, you have supported better 
background checks as an advocate of the Second Amendment, and I 
join you in believing that Americans have a strong and robust 
right to possess firearms; it is the law of the land. Do you 
also believe that better background checks on firearms 
purchases would help make both Arizona and our Nation safer?
    Captain Kelly. Absolutely, Senator. While we were having 
this hearing--and we certainly do not know the details, but in 
Phoenix, Arizona, there is another, what seems to be possibly a 
shooting with multiple victims. And it does not seem like 
anybody has been killed, but the initial reports are three 
people injured in Phoenix, Arizona, with multiple shots fired, 
and there are 50 or so police cars on the scene.
    And I certainly agree with you, sir, that, you know, a 
universal background check that is effective, that has the 
mental health records in it, that has the criminal records in 
it, will go a long way to saving people's lives.
    Senator Blumenthal. And improving the quality of 
information in those----
    Captain Kelly. Absolutely.
    Senator Blumenthal [continuing]. Checks would make a 
difference.
    Let me just again thank the panel. My hope is that Newtown 
will be remembered not just as a place but as a promise, and 
that we use this tragedy as a means of transforming the debate, 
the discussion, the action that we need to make America safer.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Just so everybody understands, we are coming to a close. I 
will make an exception to the normal rules. Senator Cruz said 
he had one more question. I will let him do that. Then I will 
yield to Senator Hirono, the newest Member of this Committee, 
and she will have the final word.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman, I very much 
appreciate your allowing me to ask an additional question.
    I wanted to ask a question of Chief Johnson. Your testimony 
here today was in some tension with what I have heard from 
police officers serving on the ground in the State of Texas, 
namely that--your testimony, as I understand it, was that, in 
your judgment, stricter gun control laws would prove effective 
in limiting crime. And the data I have seen suggests that the 
evidence does not support it.
    If one looks in the District of Columbia, which had the 
strictest gun control laws in this country and banned firearms, 
we saw that when the ban was implemented in 1976, there were 
fewer than 200 homicides. That rose to over 350 in 1988 and to 
over 450 in 1993. That pattern is reflected across major urban 
centers. Those urban centers that have the strictest gun bans, 
for example, the city of Chicago, unfortunately, suffers from, 
according to the latest statistics, 15.9 murders per 100,000 
citizens.
    Your city, the city of Baltimore, has 31.3 murders per 
100,000 citizens. That contrasts with other major urban areas 
such as my home town of Houston, which does not have strict gun 
control laws like the jurisdictions I was talking about, that 
has a murder rate of 9.2 per 100,000, one-third of Baltimore's. 
And, in fact, the city of Austin, our capital, has a murder 
rate of 3.5 per 100,000, one-tenth that of Baltimore.
    So my question to you is: In light of the evidence, what 
empirical data supports your contention that restricting the 
rights of law-abiding citizens to possess firearms would 
decrease crime rather than making them more vulnerable to 
violent criminals? Which is what I would suggest the data 
indicates has happened when it is been done.
    Chief Johnson. We know that nearly 2 million prohibited 
purchasers were stopped from obtaining their firearms since 
1994 to 2009. Senator, I would tell you that your homicide 
statistics would be much greater, and often missed from this 
conversation is the medical intervention that takes place today 
at the EMT level in the field to the shock trauma facilities 
that are very robust in our Nation today. This data would be 
much higher.
    I am here today representing nine major police executive 
leadership organizations, and for the sake of time, I am not 
going to read all those. I think they are a matter of the 
record.
    The problem in areas like Baltimore and New York and 
Chicago, with some of the toughest gun regulations and laws in 
the Nation, is outside weapons coming in. It is about the 
background check problem. It is about acquisition of these 
firearms outside of the normal firearms licensed dealer 
process. And that is what we have to fix.
    In addition, high-capacity magazines are a problem, and 
certainly we are seeing assault weapons used each and every day 
in crimes, and police are seizing these weapons each and every 
day. And, holistically, with the plan that the President has 
laid out and, frankly, some of the bills that have been put 
forth, we can make our Nation a much safer place.
    Chairman Leahy. Thank you.
    We are fortunate to have three new Members of this 
Committee: Senator Cruz, Senator Flake, and Senator Hirono. And 
you, Senator, get the last word.
    Senator Hirono. Are you saving the best for last, is that 
it?
    Chairman Leahy. Well, I was just saying you get the last 
word. You are going to have to prove whether it is the best. 
But I would note to both you and Senator Flake that I occupied 
that seat.
    Senator Hirono. Good to know.
    Chairman Leahy. And you are very patient in waiting. Also, 
I thank Senator Blumenthal for representing so well the 
feelings of the people in Connecticut.
    Senator Hirono.
    Senator Hirono. Thank you so much, Mr. Chairman. And I 
would like to thank the panel for this very lively discussion 
on what is a highly emotional subject.
    And, Captain Kelly, I would like to thank you for being 
here because Gabby and I were elected to the House of 
Representatives in the same year, and her courage continues to 
inspire us. And I certainly take to heart her testimony today 
asking us to do something now to reduce gun violence in our 
country.
    And, Chief Johnson, you are literally in the trenches. You 
are on the firing line and I certainly give much credence to 
your testimony.
    We have a lot of hunters in Hawaii, so I certainly 
understand their perspective. And to me, this issue is not 
about abrogating Second Amendment rights. It is about 
reasonable limits on those rights. And one of those areas that 
has already been deemed reasonable is the requirement for 
background checks.
    And so what many of us are saying is what has already been 
deemed reasonable should be a reasonable requirement when guns 
are sold regardless of how or where they are sold. So I hope 
that we can reach bipartisan agreement on the reasonable limit 
of requiring background checks when guns are sold.
    Captain Kelly, I do appreciate your starting your testimony 
today by saying that there is no perfect solution. There are 
all kinds of antecedent environmental issues and community 
issues that lead to gun violence, but I believe that we should 
do that which is reasonable. So nothing is perfect.
    I believe that one of the areas of focus for your 
organization, Americans for Responsible Solutions, is the 
mental health part of what we ought to be addressing that leads 
to gun violence.
    Do you have some key suggestions that Congress can take to 
help address the mental illness problem?
    Captain Kelly. Well, thank you, Senator.
    Well, you know, first of all, compelling States to share 
with the Federal Government the records, the appropriate 
records, of adjudicated mental illness and criminal records as 
well, also within the Federal Government.
    I had a conversation with the Vice President, who talked 
specifically about, you know, intergovernment agencies and 
why--that there has also been, you know, some issues in certain 
Federal Government agencies at times getting the records into 
the background check system.
    So if we could improve the system, close the gun show 
loophole, require background checks for private sellers, I 
think we will go a long way to preventing many of these murders 
and mass shootings in this country.
    We are not going to stop all of them, but there is 
certainly a reason that we have 20 times the murder rate--20 
times the murder rate--of other developed countries. And I 
think that is unacceptable.
    But, you know, like you said, you know, as an organization, 
I certainly think Congress can come together on this issue. We 
realize there is a problem, and it certainly can be solved.
    Senator Hirono. Captain Kelly, it is one thing when someone 
has already been deemed to show signs of mental illness, and 
certainly if there has been any kind of an adjudication, that 
identification is much easier and, therefore, that information 
should get into our system.
    It becomes a lot harder when you are trying to determine 
whether someone is suffering from mental illness and needs 
help. And often these kinds of signs manifest themselves 
certainly in the home, but in the schools. And we do not have a 
lot of psychologists, therapists in our schools.
    Would you also support more of those kinds of personnel in 
our schools so that we can help these individuals?
    Captain Kelly. You know, absolutely. In the case of Jared 
Loughner in Tucson, Pima Community College was well aware, you 
know, that he had some form of mental illness. They expelled 
him over it. Multiple cases of very erratic and disruptive 
behavior in the classroom and outside the classroom.
    But, for some reason, he was not referred, as far as I 
know, to an appropriate mental health authority for an 
evaluation. And I know often those need to be voluntary, but 
his parents, as well.
    I mean, there seems in this case that there was a lack of 
education within the community to get him some effective 
treatment. And it is really--it is actually really sad. Because 
in his case, as I know in many other cases, often you will see 
a man who is paranoid schizophrenic that commits some of these 
horrific crimes. But with treatment, they would never have done 
these things.
    So, absolutely. I mean, we are going to work--at Americans 
for Responsible Solutions--we are going to work to help fix the 
mental health aspect of this, too. It is a big part of it. I 
agree with Mr. LaPierre on that matter. I mean, that is a major 
issue. But so is a comprehensive, universal, a good background 
check, without a loophole, without holes in it, and getting the 
data into the system. Those are critical things that can make 
our communities much safer.
    Senator Hirono. Thank you.
    I do have one question for Chief Johnson. This is an area 
that has not been raised today so far. It has to do with an 
environment that allows bullying to occur in our schools. And 
sometimes bullying can lead to violent situations. I am sure it 
has happened in Baltimore, and just recently in Hawaii, we had 
a situation in our schools where bullying led to fights, and 
the school had to be closed.
    So I think that one of the ways that we prevent escalation 
of violent behavior is to put in place programs that will 
address the issue of bullying, which takes place in just about 
every State. Do you have any thoughts on that?
    Chief Johnson. Yes. The President's plan calls for not only 
funding and an announcement for additional police officers--and 
I believe Congress should support these plans--they also call 
for funding to support additional counselors and psychological 
service providers as well in the schools.
    Certainly, in my particular case and in many jurisdictions 
across America, we have police officers in all the high schools 
and, frankly, the middle schools, costing my jurisdiction 
nearly $8 million a year. And they have a place, but certainly 
we believe that more needs to be done in this area. In my two 
school shootings, in both shootings, bullying was alleged to be 
a factor.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    I want to thank all the witnesses who came here. This was a 
lengthy hearing. It is the first of others we will have. I 
think what we are trying to do--and I hope people realize--on 
this committee is trying to write laws that protect the public. 
Now, I cherish and exercise my Second Amendment rights as I do 
all my rights under the Constitution. But I do not think 
individual rights include weapons of war like land mines or 
tanks or machine guns or rocket-propelled grenades. And where 
do we go as we step back from those levels? I came here to have 
a discussion, hoping to build consensus. Obviously, there is 
more work that needs to be done.
    I think there is one consensus. We all want to do what we 
can to prevent future tragedies and put an end to the violence 
that breaks all our hearts. You know, I live an hour's drive 
from another country--Canada. I do not see the same kind of 
problem there. I want to find out how we can stop what is 
happening. I believe there should be some areas of agreement, 
and I hope the Committee can get together to mark up 
legislation next month--this month is virtually over--and then 
take it to the floor.
    We will respect the diversity of viewpoints represented 
today. We will have hearings that have other viewpoints. We 
have to listen to one another. But if we start with a basic 
thing that we abhor, the kind of violence we see and the 
violence I saw years ago as a prosecutor, let us find which 
steps work and go forward.
    So thank you all, all five of you, very, very much.
    We stand in recess.
    [Whereupon, at 1:55 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record
              
              
              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
